CASE No.
SUPREME COURT OF THE UNITED STATES
TONYA KNOWLES
PETITIONER,
v.
DEPARTMENT OF VETERAN AFFAIRS,
RESPONDENT
On Petition for a Writ of Certiorari to the
United States Court of Appeals Federal Circuit
Petition for a Writ of Certiorari
APPENDIX
Tonya Knowles
1201 Seminole Blvd
Apartment 474
Largo, Florida 33770
(239)672-5623
Pro Se

Table of Contents

Appendix A

DATE
January 10, 2020

Appendix B

April 22, 2019

#

October 24, 2018

June 25, 2019

1.

SUBJECT
Disposition
Decision in
Question AF
Tab 56 pg. 1-36
Ack. Order AF.
Tab 03 Page 1-17
MSPB Index:
Document Number
1221-19-0047-W-l

May 23, 2016 Email Communication:
Missing Authorizations
AF. Tab 07 Page 04

2.

June 06, 2016

Email Communication:
Inappropriate Behavior
by co-worker
AF. Tab 07 Page 15-16

3.

June 18, 2016

Email Communication:
Job Performance
AF. Tab 07 Page 7-8

4.

July 06, 2016

Email Communication:
Physically Hit with
Documents
AF. Tab 07 Page 17

5.

July 18, 2016

Email Communication
Request Group Change
AF. Tab 07 Page 09

6.

July 26, 2016

Email Communication
Safeguards concerning PHI
& PII/ Inappropriate
Behavior by Lead
AF. Tab 02 Page 22

7. July 27, 2016

Fact Finding Investigation:
Hostile Work Environment
AF. Tab 07 Page (11, 13-14)

8. August 05, 2016

Email Communication:
Report to EEO Hostile Work Env.
AF. Tab 18 Page 129-131

9. August 10, 2016

In Person Meeting:
To Discuss Concerns regarding
Safeguards and Inappropriate
Behavior
AF. Tab 02 Page 23

10. August 18, 2016

Email Communication:
Request a Key to Safeguard
Documents
AF. Tab 18 Page 125

11. August 31, 2016 Request: Disciplinary Action
Agency Proposed Suspension
Packet: Rosa Sly

12. October 12, 2016

Email Communication
AF. Tab 07 Page 19
Lack of Team Work

13. November 02, 2016 Email Communication
AF. Tab 07 Page 22
Inappropriate Behavior by Lead
14. December 29, 2016

Email Communication:
AF. Tab 07 Page 28
Hostile Work Environment

15. December 30, 2016 Proposed Suspension:
AF. Tab 07 Page 29-31
Ms. Donna Griffin Hall
16. January 05, 2017

Oral Meeting:
AF Tab 29 Page 97-106
Ms. Kristina Brown

17. February 01, 2017

Email Communication:
AF. Tab 18 Page 135
Unsigned Authorization
Form

18. February 02, 2017

Email Communication:
AF. Tab 07 Page 23
Inappropriate Behavior by
Lead

19. February 02, 2017 Email Communication:
AF. Tab 18 Page 137
Meeting with Police Officers
w/ Asst. Chief Devona
Hollingsworth

20. February 03, 2017

Email Communication
AF. Tab 07 Page 36
Request that Police Monitor
ROI

21. March 10, 2017

Suspension Determination
AF. Tab 07 Page 49
Ms. Kristina Brown

22. January 17, 2017

ISO Violation:
AF. Tab 07 Page 34-35
Gina Rhodes

23.

Email Communication
AF Tab 07 Page 18
Inappropriate
Communication in Meeting

January 20, 2017

24. February 07, 2017 ISO Violation:
AF. Tab 07 Page 39-40
Ms. Devona Hollingsworth
25. February 09, 2017

In Person Communication
AF. Tab 18 Page 144
Deactivation from VA
Network

26. February 20, 2017 Email Communication
AF Tab 18 Page 142
Reassignment with Dr. Roma
Palcan

27. March 06, 2017

Email Communication
AF Tab 17 Page 8
Inappropriate Email by
Management

28. April 19, 2017

Email Communication
AF. Tab 18 Page 146-147
Fabricated Fact-Finding
Investigation

29. June 29, 2017

Email Communication
AF. Tab 07 Page 50
Breach of Privacy MultiDisciplinary Assessment

30. July 03, 2017

31.

Email Communication: AF. Tab
07 Page 51
Breach of Privacy
LCSW Documented that I was
Disorganized and Disjointed

July 31, 2017

Email Communication:
Notice of Harassment
AF. Tab 18 Page 213-214

32.

August 10, 2017

Email Communication
AF. Tab 18 Page 209
Safety Concerns:
Management Officials

33.

August 14, 2017

Email Communication
AF. Tab 18 Page 207
Safety Concerns: Co Worker

34.

August 14, 2017

35. August 15, 2017

Email Communication
AF. Tab 18 Page 212
EEO Complaints &
Unethical Behavior
Email Communication
AF Tab 18 Page 216
Surgery and Ongoing
Harassment

36. October 02, 2017

Police Investigation
AF. Tab 19 Page 17-18
Gary Lange

37. October 23, 2017

Email Communication
AF. Tab 19 Page 20-21
Altered Emails

38. October 24, 2017

Request: Disciplinary Action
Agency’s Proposed Suspension
Packet: Rosa Sly

39. January 17, 2018

Email Communication
AF. Tab 19 Page 23
OSHA Law/Inappropriate
Behavior

40. January 24, 2018

Verbal Warning:
AF. Tab 02 Page 39 (Spec. C)
Ms. Rosa Sly

41.

March , 2018

Proposed Suspension:
AF. Tab 02 Page 39-40
Ms. Donna Griffin Hall

42. April 06, 2018

Oral Summary:
AF. Tab 19 Page 136-137
Mr. Jonathan Benoit

43. April 12, 2018

Email Communication
AF Tab 19 Page 98-99
Denial of Employee Records

44. April 09, 2018

Email Communication
AF. Tab 19 Page 133
Request Oversight by Director

45. April 17, 2018

Email Communication
AF. Tab 19 Page 146-147
Management demanding that I
Take on a Responsibility I was
not hired to complete

46. April 20, 2018 Suspension Decision Letter:
AF. Tab 02 Page 41
Jonathan Benoit
47. March 30, 2018 Email Communication
AF Tab 19 Page 141
Violation of Weingarten Rights
48. April 18, 2018

Email Communication
AF Tab 19 Page 161
Disabled Computer Access
Due to Reports of Fraud,
Waste, and Abuse

49. April 19, 2018

Federal Labor Relations Auth.
AF. Tab 02 Page 35-38
Jack Roberts, Esq.

50. May 21, 2018

Email Communication
AF. Tab 19 Page 166-167
Abuse of Authority

51. May 22, 2018 Email Communication
AF. Tab 19 Page 163
At Work Completing No Work
Staring at a Refrigerator
52. May 22, 2018

Confirmation Memorandum
AF Tab 32 Page 24
Destroy and or Return to VA
Custody

53. May 30, 2018 Request: Corrective Action
Agency’s Proposed Termination
Packet: Ms. Rosa Sly
54. June 29, 2018

55. July 10, 2017

Proposed Removal:
AF. Tab 02 Page 3-6
Ms. Donna Griffin Hall

Email Communication
AF. Tab 19 Page 176-177
Proposed Removal is based
On Prohibited Personnel Practices

56. August 17, 2017 Email Communication
AF. Tab 19 Page 179
Unwelcome Attention
of Ms. Donna Griffin Hall
is Harassment

57. November 09, 2018 Email Communication:
AF. Tab 19 Page 184
Ms. Rosa Sly’s
Inappropriate Behavior
58. November 28, 2018 Email Communication
AF. Tab 19 Page 158
Disabled Computer Access
59. February 08, 2019

Email Communication
AF. Tab 29 Page 85
Agency Attorney Ms.
Tanya” TB” Burton
Demanding that I settle my
case via phone

60. July 22, 2019

Perfume & other Scents
Email Communication
Ms. Rosa Sly ( ROI
Supervisor)
61. August 08, 2019 My Health is impacted:
Email Communication
Director Paul Russo
62. August 13, 2019

Fragrance:
Email Communication
Marcia Powell

63. May 22, 2018

Memorandum: Detail
VHA Memorandum
Ms. Donna Griffin Hall (
Chief, BOS)

64. August 13, 2019

65. August 20, 2019

66. August 24, 2019

Safeguards
Email Communication
Email Communication:
Angellette
Safeguards
Email Communication

67. December 20, 2018

Response Order to Show
Cause: AF Tab 15

68. February 14, 2019

Order finding Jurisdiction:
AF Tab 26

69. March 14, 2016

70. January 17, 2018

Performance Improvement
Plan AF Tab 02 Page 42-53
Donna Griffin Hall (Chief,
BOS) Rosa Sly (ROI,
Supervisor)
OIG Report Number:
16-02864-71
AF Tab 07 Page 77-80

71. September 29, 2017 OSC Report Number:
DI-17-4282
AF Tab 02 Page 24-25
72. March 18, 2016

Offer of Employment
AF Tab 53 Page 04

73. October 20, 2015

Baroudi Vs. Shinseki
AF Tab 16 Page 9-13

75. June 2018

76. October 24, 2019

Government Accountability
Office GAO Website
Report Number: 18-400
Office of Inspector General
(OIG) OIG Website
Report Number 18-04968249

D

■r,

NOTE: This disposition is nonprecedential.

fHntteb States! Court of Appeals
for tf)e jfeberal Circuit
TONYA KNOWLES,
Petitioner
v.
DEPARTMENT OF VETERANS AFFAIRS,
Respondent
2019-1987
Petition for review of the Merit Systems Protection
Board in No. AT-1221-19-0047-W-1.
Decided: January 10, 2020
Tonya Knowles, Largo, FL, pro se.
KELLY A. RrystYNIAK, Commercial Litigation Branch,
Civil Division, United States Department of Justice, Wash­
ington, DC, for respondent. Also represented by JOSEPH H.
Hunt, Reginald Thomas Blades, Jr., Robert Edward

Kirschman, Jr.
Before DYK, TARANTO, and CHEN, Circuit Judges.

Appendix A

KNOWLES V. DVA

2

Per Curiam.
Pro se appellant Tonya Knowles appeals from a deci­
sion of the Merit Systems Protection Board (Board) deny­
ing Ms. Knowles’s request for corrective action under the
Whistleblower Protection Act (WPA). We affirm.

Background
Ms. Knowles is currently employed by the Bay Pines
Veterans Affairs Health Care System, a veterans’ hospital
operated by the Department of Veterans Affairs (agency)
in Bay Pines, Florida. From 2016 to 2018, Ms. Knowles
was subject to several personnel actions she believes were
in retaliation for her protected disclosure in violation of the
WPA. In 2017, Ms. Knowles filed a complaint with the Of­
fice of Special Counsel (OSC) alleging that Bay Pines em­
ployees were not properly storing patients’ medical records
and that she had been detailed, suspended, discriminated
against, experienced a hostile work environment and re­
ceived a proposed removal as reprisal for the allegation re­
garding the improper storage of medical records. Each
personnel action is discussed below.
On December 30, 2016, the agency proposed to suspend
Ms. Knowles from duty and pay for ten days based on three
charges: (1) failure to safeguard confidential information,
(2) negligence causing waste and delay, and (3) disruptive
behavior. After Ms. Knowles gave oral and written replies,
the agency’s deciding official issued a final decision on
March 10, 2017 sustaining the charges and mitigating the
proposed ten-day suspension to seven days.
On January 10, 2017, the agency issued a memoran­
dum stating that Ms. Knowles left protected health infor­
mation and personally identifiable information concerning
several patients unattended and unsecured on her desk.
On February 7, 2017, the agency issued another memoran­
dum finding that Ms. Knowles committed a privacy viola­
tion by leaving a pre-complaint form with her own name,

Appendix A

KNOWLES V. DVA

3

address, and social security number face-up in a tray by
her work station.
On March 26, 2018, the agency again proposed to sus­
pend Ms. Knowles from duty and pay, this time for fourteen
days based on two charges: (1) failure to follow instructions
and (2) disruptive behavior. After Ms. Knowles gave oral
and written replies, the agency’s deciding official issued a
final decision on April 20, 2018, sustaining the charges and
the proposed fourteen-day suspension.
On June 29, 2018, the agency proposed to remove Ms.
Knowles from federal employment based on two charges:
(1) failure to cooperate and (2) failure to safeguard confi­
dential information. To date, the agency has not reached a
decision regarding Ms. Knowles’s proposed removal.
The OSC closed its inquiry as to whether the agency
was improperly storing patients records on September 29,
2017 and determined that the agency had begun safe­
guarding documents in compliance with agency regula­
tions. The OSC closed its inquiry into Ms. Knowles’s claim
of whistleblower retaliation on October 18, 2018. Ms.
Knowles then filed an individual right of action with the
Board on October 19, 2018, alleging that the agency’s per­
sonnel actions against her violated the WPA because they
were in retaliation for making a protected disclosure.
Based on the testimony and evidence presented, the ad­
ministrative judge found that Ms. Knowles had made at
least one protected disclosure and had established that her
disclosure was a contributing factor in the agency’s person­
nel actions. But the administrative judge also found that
the agency would have taken the same disciplinary actions
notwithstanding Ms. Knowles’s disclosure and therefore
that corrective action was not warranted. The administra­
tive judge’s initial decision became the final decision of the
Board. Ms. Knowles timely appealed to this court. We
have jurisdiction under 28 U.S.C. § 1295(a)(9).
Discussion

/

Appendix A

KNOWLES v. DVA

4

Our standard of review is limited and requires this
court to affirm a decision of the Board unless it is “(1) arbi­
trary, capricious, an abuse of discretion, or otherwise not
in accordance with the law; (2) obtained without proce­
dures required by law, rule, or regulation having been fol­
lowed; or (3) unsupported by substantial evidence.”
5 U.S.C. § 7703(c). Substantial evidence is “relevant evi­
dence” that “a reasonable mind might accept as adequate
to support a conclusion.” Ingram v. Dep't of the Army, 623
Fed. Appx. 1000, 1003 (Fed. Cir. 2015).

"

The WPA prohibits an agency from taking a personnel
action because of any whistleblowing “disclosure” or activ­
ity. 5 U.S.C. § 2302(b)(8)-(9). An employee who believes
he has been subjected to illegal retaliation must prove by a
preponderance of the evidence that he made a protected
disclosure that contributed to the agency’s action against
him. See Whitmore v. Dep’t of Labor, 680 F.3d 1353, 1367
(Fed. Cir. 2012). “If the employee establishes this prima
facie case of reprisal for whistleblowing, the burden of per­
suasion shifts to the agency to show by clear and convinc­
ing evidence that it would have taken ‘the same personnel
action in the absence of such disclosure.”’ Id. at 1364 (quot­
ing 5 U.S.C. § 1221(e)). If the agency does not show by clear
and convincing evidence that it would have taken the same
action absent the whistleblowing, the agency’s personnel
action must be set aside. See Siler v. Envtl. Prot. Agency,
908 F.3d 1291, 1298 (Fed. Cir. 2018).
In Ms. Knowles’s case, the government does not dis­
pute that agency officials issued personnel actions against
her. The parties likewise agree that Ms. Knowles made
protected disclosures. The question here is whether the
Board properly found that the agency established “by clear
and convincing evidence,” that for each of the personnel ac­
tions taken between 2016 and 2018, “it would have taken
the same personnel action in the absence of [a protected]
disclosure.” 5 U.S.C. § 1221(e)(2). This Court has outlined
factors to consider to answer that question. Carr v. Soc.

Appendix A

5

KNOWLES v. DVA

Sec. Amin., 185 F.3d 1318, 1323 (Fed. Cir. 1999). Under
Carr, the Board considers (1) “the strength of the agency’s
evidence in support of its personnel action;” (2) “the exist­
ence and strength of any motive to retaliate on the part of
the agency officials who were involved in the decision;” and
(3) “any evidence that the agency takes similar actions
against employees who are not whistleblowers but who are
otherwise similarly situated.” Id. Here, substantial evi­
dence supports the Board’s findings with respect to the
Carr factors and its ultimate determination that the
agency would have implemented the personnel actions it
did, or proposed to, even if Ms. Knowles had not made a
protected disclosure.
A. March 2017: Seven Day Suspension
In December 2016, the agency proposed a ten-day sus­
pension, which was mitigated to a seven-day suspension in
March 2017. The charges against Ms. Knowles included:
(1) failure to safeguard confidential information, (2) negli­
gence causing waste and delay, and (3) disruptive behavior.
Charge one was supported by four specifications, all of
which detailed instances in which Ms. Knowles mishan­
dled or lost confidential information. Charge two was sup­
ported by three specifications all of which relate to the free
credit monitoring services the agency had to provide to vet­
erans due to Ms. Knowles’s mishandling of confidential in­
formation.
Charge three was supported by three
specifications, all of which discussed Ms. Knowles’s disrup­
tive behavior during work, including Ms. Knowles’s lan­
guage and actions in front of veterans.
With respect to the first Carr factor, substantial evi­
dence supports the Board’s findings that the agency met its
burden of proving charges one and two. J.A. 11-12. For
charge one, the record contained a handwritten note from
a veteran stating that while he was sitting with Ms.
Knowles and she was looking for his patient information,
another veteran returned it to him. J.A. 11. Additionally,

Appendix A

6

KNOWLES v. DVA

this mishandling of information was also documented in a
memorandum from 2016. Id. For charge two, the Board
noted that Ms. Knowles did not deny that her actions re­
quired the agency to bear the expense of credit monitoring
for veterans whose confidential information she had mis­
placed. J.A. 12. The Board declined to consider charge
three, because the agency provided little supporting testi­
mony and evidence. Id. The Board reasonably found the
evidence in supporting charges one and two sufficient to
sustain those charges and justify the imposed seven-day
suspension. Id.
With respect to the second Carr factor, the Board
properly found no retaliatory motive by the three agency
officials involved in recommending, proposing, and decid­
ing Ms. Knowles’s suspension. J.A. 12-14. Ms. Knowles
argues that for all three agency officials her “criticisms re­
flected on both of their capacities as management officials
and employees, which is sufficient to establish a substan­
tial retaliatory motive.” The Board is in the best position
to assess the credibility of witnesses. Haebe v. DOJ, 288
F.3d 1288, 1300 (Fed. Cir. 2002). We find that the Board
appropriately made credibility determinations as to each
testifying official and its “finding of] no evidence in the rec­
ord” for retaliatory motivation for these officials supported
by substantial evidence. J.A. 13, 14.
With respect to the third Carr factor, the Board found
“neither party presented meaningful evidence regarding
the extent to which the agency may take similar actions
against employees who did not engage in protected activity
but who are otherwise similarly situated to the appellant.”
J.A. 14. Thus, the Board concluded that “there is no rele­
vant comparator evidence.” Id.' Ms. Knowles argues that
the agency did not take similar actions against a different
whistleblower employee, Dr. Roula Baroudi, who was ac­
cused of photographing patient records. Dr. Baroudi, how­
ever, was not a similarly situated non-whistleblower, but
rather an allegedly similarly situated whistleblower.

Appendix A

KNOWLES v. DVA

7

Therefore, the Board appropriately did not consider this in­
formation. Siler v. Envtl. Prot. Agency, 908 F.3d 1291, 1299
(Fed. Cir. 2018) (“Though the agency’s treatment of other
whistleblowers may illuminate any motive to retaliate un­
der Carr factor 2, it does not show the agency’s treatment
of non-whistleblower employees accused of similar conduct,
the precise inquiry considered under Carr factor 3.”).
Based on the record, substantial evidence supports the
Board’s decision that the agency properly established by
clear and convincing evidence that it would have taken the
Same personnel action even absent Ms. Knowles’s pro­
tected disclosure.
B. 2017 Security Violations
In 2017, Ms. Knowles was informed that she had vio­
lated agency rules related to safeguarding printed and elec­
tronic
individually
identifiable
privacy-protected
information. The agency issued two memorandums, the
first from the Information Security Officer (ISO) and the
second from the Assistant Chief of Health Information
Management (ACHIM).
As to the first Carr factor, the Board found strong evi­
dence supporting the violations, and substantial evidence
supports its finding. J.A. 15, 17. The first memorandum
from the agency’s ISO on January 10, 2017, detailed that
Ms. Knowles had left patient records unattended or unse­
cured on her desk. J.A. 14—15. The Board found that Ms.
Knowles did not deny leaving the information unattended
and unsecured on her desk. J.A. 15. The second memoran­
dum from February 7, 2017 indicated Ms. Knowles left a
pre-complaint form with Ms. Knowles’s full name, address,
and social security number face-up in the top tray at a work
station. J.A. 16. Again, Ms. Knowles did not deny the al­
legation. J.A. 17.
As to the second Carr factor, substantial evidence sup­
ports the Board’s finding that no evidence existed on the
part of the two agency officials to retaliate against Ms.

Appendix A

8

KNOWLES V. DVA

Knowles. The ISO was unaware of Ms. Knowles’s protected
disclosure when it issued the January 2017 memorandum.
J.A. 15. Nor was there any evidence in the record as to
whether the ACHIM, the author of the second memoran­
dum, knew about Ms. Knowles’s protected disclosure. J.A.
17.
Neither Ms. Knowles nor the government presented ev­
idence as to a similarly situated non-whistleblower. There­
fore, the Board was free to find the personnel action lawful
under Carr factors one and two. Sutton u. Dep’t of Justice,
94 M.S.P.R 4, 12—13 (2003) (finding that whistleblower was
lawfully removed based on the evidence under Carr factors
one and two, where the record contained no evidence of ac­
tion taken against similarly situated non-whistleblowers);
see also McCarthy v. Int’l Boundary & Water Comm.: U.S.
& Mexico, 116 M.S.P.R. 594, 626 (2011) (concluding that
“the third Carr factor is not a significant factor for the
Board’s analysis in the instant appeal” in the absence of
evidence showing that the agency took similar actions
against similarly situated non-whistleblowers).1 Thus, the
Board did not err in holding that the agency properly es­
tablished by clear and convincing evidence that it would
have taken the same personnel action even absent Ms.
Knowles’s protected disclosure.
C. Makch 2018: Fourteen Day Suspension
In March 2018, the agency proposed to suspend Ms.
Knowles for fourteen days without pay based on two
charges, “failure to follow instructions” and “disruptive be­
havior.” With respect to the first Carr factor, substantial
evidence supports the Board’s finding that the record evi­
dence supports the validity of the charges. J.A. 19. The

1 To the extent that Ms. Knowles is presenting the
same evidence with respect to Dr. Baroudi, see the expla­
nation in part A, supra.

Appendix A

KNOWLES V. DVA

9

record evidence contained the March 26, 2018 suspension
proposal with handwritten notes by Ms. Knowles. Id.
None of Ms. Knowles’s notes denied the allegations, nor did
Ms. Knowles offer testimony about the underlying conduct,
as to either charge. Id. Moreover, as to the disruptive be­
havior charge, the record contained the email sent by Ms.
Knowles to Ms. Royer, accusing Ms. Royer of altering an
email originally drafted by Ms. Knowles. J.A. 18. Addi­
tionally, the Board properly credited Ms. Royer’s testimony
that she feared Ms. Knowles would damage her career and
she therefore raised the allegation with her supervisor.
J.A. 21.
As to the second Carr factor, the Board reasonably
found no evidence that the proposing official or the deciding
official suffered negative consequences as a result of Ms.
Knowles’s protected disclosure nor other evidence suggest­
ing the disclosure motivated their decisions. J.A. 21-22.
Ms. Knowles argues that the proposing officer was placed
on a “Performance Improvement Plan” (Plan) that “focused
on areas that the Business Office Service Leadership Team
was underperforming in.” To the extent Ms. Knowles ar­
gues that participation in the Plan was a negative conse­
quence of her disclosures, there is no evidence in the,record
supporting this claim. And, as explained above, we find
that the Board made appropriate credibility determina­
tions in finding no evidence of a retaliatory motive.
With respect to the third Carr factor, we agree with the
Board that neither Ms. Knowles nor the government pre­
sented evidence as to a similarly situated non-whistle­
blower and therefore the Board appropriately only
considered Carr factors one and two.2 Thus, the Board did
not err in holding that the agency properly established by

2
To the extent that Ms. Knowles is presenting the
same evidence with respect to Dr. Baroudi, see the expla­
nation in part A, supra.

Appendix A

KNOWLES V. DVA

10

clear and convincing evidence that it would have taken the
same personnel action even absent Ms. Knowles’s pro­
tected disclosure.
D. June 2018-. Proposed Removal
In June 2018, the agency proposed to remove Ms.
Knowles from federal employment based on two charges.
The first charge was “failure to cooperate” and was sup­
ported by two specifications which both relate to Ms.
Knowles’s failure to address questions and issues from the
agency’s Privacy Office. The second charge was “failure to
safeguard confidential information.” The second charge
was supported by eleven specifications alleging that Ms.
Knowles sent confidential veteran information to her per­
sonal email address.
With respect to the first Carr factor, the Board’s find­
ings of strong evidence to support both charges are amply
supported by the evidence. The record contains a copy of
the Privacy Office’s confirmation memorandum, listing all
of the steps Ms. Knowles should take with respect to the
confidential information she sent to her personal email ad­
dress, which Ms. Knowles did not sign. J.A. 127. The rec­
ord in front of the Board also contained copies of several
email messages containing the confidential information
Ms. Knowles sent to her personal email account. J.A. 27.
Ms. Knowles did not deny the facts alleged in the specifica­
tions. Id.
As to the second Carr factor, the Board found no evi­
dence in the record that the officer proposing the removal
suffered negative consequences as a result of Ms. Knowles’s
disclosure nor any other evidence suggesting that such a
disclosure motivated her to issue the notice of removal.
J.A. 27-28. For the reasons provided earlier, we find that
the Board made appropriate credibility determinations and
substantial evidence supports the Board’s decision. Be­
cause Ms. Knowles’s arguments and the Board’s finding as
to the third Carr factor are no different than what was

Appendix A

KNOWLES v. DVA

11

presented for the other personnel actions discussed above,
we affirm the Board’s findings here as well.
We have considered Ms. Knowles’s remaining argu­
ments and find them unpersuasive.
Conclusion
For the foregoing reasons, the decision of the Board is
affirmed.
AFFIRMED
Costs
No Costs.

Appendix A

UnttetJ States! Court of Uppeafe
for tfje Jfctieral Circuit
TONYA KNOWLES,
Petitioner
v.
DEPARTMENT OF VETERANS AFFAIRS,
Respondent
2019-1987
Petition for review of the Merit Systems Protection
Board in No. AT-1221-19-0047-W-1.

JUDGMENT
THIS Cause having been considered, it is
Ordered and Adjudged:
AFFIRMED
Entered By Order Of The Court
January 10. 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Appendix A

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
ATLANTA REGIONAL OFFICE

TONYA KNOWLES,
Appellant,

DOCKET NUMBER
AT-1221-19-0047-W-1

v.
DEPARTMENT OF VETERANS
AFFAIRS,
Agency.

DATE: April 22, 2019

Tonya Knowles. Largo, Florida, pro se.
Tanya Burton. Esquire, Bay Pines, Florida, for the agency.
BEFORE
Jeffrey S. Morris
Administrative Judge
INITIAL DECISION
On October 19, 2018, the appellant filed an individual right of action (IRA)
appeal alleging that the agency had twice suspended her without pay, had issued
her two information security violation memorandums, and had proposed her
removal for misconduct, all in retaliation for whistleblowing. Appeal File (AF),
Tab 1. The Board has jurisdiction over the appeal under 5 U.S.C. §§ 1214(a)(3)
and 1221(a), (e).

The hearing requested by the appellant was conducted by

videoconference on April 3, 2019.

For the reasons set forth below, the

appellant’s request for corrective action is DENIED.

Appendix B

2
ANALYSIS AND FINDINGS
Background
By letter dated December 30, 2016, the agency proposed to suspend the
appellant from duty and pay for ten days based on the charges of “Failure to
safeguard confidential information,” Negligence causing waste and delay,’’ and
“Disruptive behavior.” AF, Tab 9, p. 283. After the appellant gave oral and
written replies, the agency’s deciding official issued a final decision letter on
March 10, 2017, which sustained the charges and mitigated the proposed 10-day
suspension to a 7-day suspension. Id., p. 287.
Meanwhile, on January 10, 2017, the agency’s Information Security Officer
had issued a memorandum entitled “Violation of Rules of Behavior Observed
during EOC Rounds.” This memorandum concluded that the appellant left
privacy-protected information concerning several patients unattended and
unsecured on her desk. AF, Tab 7, p. 34 (Agency Exhibit 4).

Separately, on

February 7, 2017, the agency’s Assistant Chief, Health Information Management,
issued a memorandum entitled “Violation of Rules of Behavior - Unsecured
PII/PHI - Ms. Tonya Knowles,” which found that on January 17, 2017, the
appellant had committed a privacy violation by leaving a pre-complaint form with
her own name, address, and social security number face-up in a tray by her work
station for that day. Id., Tab 9, p. 71. l
By letter dated March 26, 2018, the agency proposed to suspend the
appellant from duty and pay for fourteen days based on the charges of “Failure to
Follow Instructions” and “Disruptive Behavior.” AF, Tab 9, p. 273. After the
appellant gave oral and written replies, the agency’s deciding official issued a
final decision letter on April 20, 2018, which sustained the charges and the
proposed 14-day suspension. Id., p. 277.

l

Neither memorandum described in this paragraph was cited or relied upon in the
suspensions or the proposed removal which are also at issue in this appeal.

Appendix B

3
Finally, by letter dated June 29, 2018, the agency proposed to remove the
appellant from federal employment based on the charges of “Failure to
Cooperate,” and “Failure to Safeguard Confidential Information.” AF, Tab 9, p.
182. There is no dispute that the agency has not effected the appellant’s removal,
and that she remains employed by the agency.
The appellant subsequently filed a complaint with the Office of Special
Counsel (OSC), alleging that the agency’s actions described in the preceding
paragraphs were motivated by retaliation for whistleblowing and/or protected
activity.

On October 18, 2018, OSC issued a letter which notified the appellant

that it had terminated its investigation of the matter.2 The letter also informed the
appellant of her appeal rights to the Board.

Id., Tab 1. As noted above, the

instant IRA appeal was filed on October 19, 2018.
General legal standards for IRA appeals
The Board has jurisdiction over an IRA appeal if the appellant has
exhausted her administrative remedies before the OSC3 and makes non-frivolous
allegations that: (1) she engaged in whistleblowing activity by making a protected
disclosure; and (2) the disclosure was a contributing factor in the agency’s
decision to take or fail to take a personnel action.

Yunus v. Department of

Veterans Affairs, 242 F.3d 1367, 1371 (Fed. Cir. 2001).

2 OSC’s closure letter did not identify the two information security violation
memoranda referenced in the text as personnel actions taken against the appellant.
However, before the hearing the appellant produced evidence which persuaded me that
she had raised these matters before OSC. The closure letter did identify a temporary
assignment (i.ea “detail”) made by the agency as a personnel action taken against the
appellant. However, the appellant did not assert this personnel action before the Board.
AF, Tab AF, Tabs 13-15.
3 Because the appellant filed this appeal with the Board within 65 days of the OSC
notice, I find that she satisfied the timeliness aspect of the exhaustion requirement, and
that she has exhausted administrative proceedings before OSC.

Appendix B

4
For an appellant who establishes Board jurisdiction over her IRA appeal to
be entitled to corrective action over her claims, she must establish by a
preponderance of the evidence4 the following four elements: (1) the management
official has the authority to take, recommend, or approve any personnel action;
(2) the aggrieved employee made a disclosure protected under 5 U.S.C.
§ 2302(b)(8) or engaged in protected activity under 5 U.S.C. § 2302(b)(9); (3) the
management official used his authority to take, or refuse to take, a personnel
action against the aggrieved employee; and (4) the protected disclosure was a
contributing factor in the agency’s personnel action.

See Chambers v.

Department of Interior, 602 F.3d 1370, 1376 (Fed. Cir. 2010); Lachance v. White,
174 F.3d 1378, 1380 (Fed. Cir. 1999), cert, denied, 528 U.S. 1153 (2000). If the
appellant meets that burden, the Board must order corrective action unless the
agency establishes by clear and convincing evidence5 that it would have taken the
same personnel action in the absence of the disclosure.
Department of Labor, 680 F.3d 1353, 1364 (Fed. Cir. 2012).

See Whitmore v.
Evidence only

clearly and convincingly supports a conclusion when it does so in the aggregate
considering all the pertinent evidence in the record, and despite the evidence that
fairly detracts from that conclusion. Id. at 1368.
A “personnel action” is defined as follows: (i) an appointment; (ii) a
promotion; (iii) an action under 5 U.S.C. chapter 75 or other disciplinary or
corrective action; (iv) a detail, transfer, or reassignment; (v) a reinstatement; (vi)
a restoration; (vii) a reemployment; (viii) a performance evaluation under 5
U.S.C. chapter 43; (ix) a decision concerning pay, benefits, or awards, or

4 A preponderance of the evidence is that amount of relevant evidence which a
reasonable person, considering the record as a whole, would accept as sufficient to find
that a contested fact is more likely true than untrue. 5 C.F.R. § 1201.4(q).
5 Clear and convincing evidence is that measure or degree of proof that produces in the
mind of the trier of fact a firm belief as to the allegations sought to be established. 5
C.F.R. § 1209.4(d).

Appendix B

5
concerning education or training if the education or training may reasonably be
expected to lead to an appointment, promotion, performance evaluation, or other
personnel action; (x) a decision to order psychiatric testing or examination; (xi)
the implementation or enforcement of any nondisclosure policy, form, or
agreement; and (xii) any other significant change in duties, responsibilities, or
working conditions. 5 U.S.C. § 2302(a)(2)(A); Mattil v. Department of State, 118
M.S.P.R. 662,1 14 (2012).
The appellant made at least one protected disclosure under the WPA.
A protected disclosure is one that the appellant reasonably believes
evidences a violation of law, rule, or regulation, gross mismanagement, a gross
waste of funds, an abuse of authority, or a substantial and specific danger to
public health or safety.

See 5 U.S.C. § 2302(b)(8)(A); Chambers v. Department

of Interior, 515 F.3d 1362, 1367 (Fed. Cir. 2008). A reasonable belief exists if a
disinterested observer, with knowledge of the essential facts known to and readily
ascertainable by the appellant, could reasonably conclude that the actions of the
government evidence one of the categories of wrongdoing set out in 5 U.S.C.
§ 2302(b)(8)(A). Lachance, 174 F.3d at 1381.
In response to my Order to Show Cause (AF, Tab 13), the appellant
asserted that, inter alia, on or about July 26, 2016 she made protected disclosures
to her management chain to the effect that personally identifiable information
(PII) was not safeguarded in violation of, inter alia, the Privacy Act and the
Health Insurance Portability and Accountability Act of 1996 (HIPAA). AF, Tab
15, p. 5.

By order dated February 14, 2019, I found the appellant had non-

frivolously alleged that a disinterested observer with knowledge of the essential
facts known to and readily ascertainable by her could reasonably conclude that
the agency’s actions evidenced wrongdoing as defined by the WPA.

In other

words, she non-frivolously alleged that she disclosed information that she
reasonably believed evidenced a violation of any law, rule, or regulation. I
further found the disclosure was raised before OSC. AF, Tab 26. The agency has

Appendix B

6
not disputed that the appellant made this protected disclosure. Therefore, I find
that the appellant has shown that she made at least one protected disclosure.
The appellant established that her disclosure was a contributing factor in the
agency’s personnel actions.
As stated above, a “personnel action” includes an action under 5 U.S.C.
Chapter 75 or other disciplinary or corrective action. See 5 C.F.R. § 1209.4; 5
U.S.C. § 2302(a)(2)(A).. Here, it is undisputed that the agency twice suspended
her (in 2017 and 2018), issued two information security violation memoranda
concerning her (in January and February 2017),6 and proposed her removal (in
June 2018). I find that these actions all qualify as “personnel actions” under the
WPA.
An appellant may demonstrate that a disclosure was a contributing factor in
a personnel action through circumstantial evidence, such as evidence that the
official taking the personnel action knew of the disclosure, and that the personnel
action occurred within a period of time such that a reasonable person could
conclude that the disclosure was a contributing factor in the personnel action,
also known as the “knowledge/timing test.” Once the knowledge/timing test has
been met, an administrative judge must find that the appellant has established that
her protected whistleblowing activity was a contributing factor in the personnel
action at issue, even if, after a complete analysis of all of the evidence, a
reasonable fact finder could not conclude that the appellant’s whistleblowing was
a contributing factor in the personnel action. See, e.g., Schnell v. Department of
the Army, 114 M.S.P.R. 83,

21 (2010). To satisfy the “knowledge/timing” test,

the appellant need only demonstrate that the fact of, not necessarily the content
of, the protected disclosure was one of the factors that tended to affect the

6 I find that the two information security violation memoranda, although not addressed
to the appellant directly, constituted significant changes in the appellant’s working
conditions for purposes of 5 U.S.C. § 2302(a)(2)(A).

Appendix B

7
personnel action in any way. See Rubendall v. Department of Health & Human
Services, 101 M.S.P.R. 599, If 11 (2006).
There is no dispute that the proposing and deciding officials for the
suspensions

and the proposed removal were

aware

of the

appellant’s

whistleblowing and/or protected activities by virtue of her frequent email
messages and/or her statements in response to actions that were proposed.
Moreover, all of the agency’s actions occurred within approximately one year of
her protected disclosure referenced in the preceding subsection. Consequently, I
find that the appellant met her burden on the contributing factor issue.
The agency established bv clear and convincing evidence that it would have taken
the same actions absent the protected disclosures.
I find that the agency has shown by clear and convincing evidence that it
would have taken the same personnel actions in the absence of the appellant’s
protected disclosure. In determining whether the agency has met its burden of
clear and convincing evidence that it would have taken the same personnel action
in the absence of whistleblowing, the following factors (the “Carr factors”)
should be considered: (1) the strength of the agency’s evidence in support of its
personnel action; (2) the existence and strength of any motive to retaliate on the
part of the agency officials who were involved in the decision; and (3) any
evidence that the agency takes similar actions against employees who are not
whistleblowers but who are otherwise similarly situated. See Whitmore, 680 F.3d
at 1365; Carr v. Social Security Administration, 185 F.3d 1313, 1318 (Fed. Cir.
1999).7

7 Although the Board will consider the strength of the agency's justification for taking
the challenged action as part of the clear and convincing analysis, the Board does not
conduct a merits-based analysis of an agency's charge of misconduct in an IRA appeal
as it would in an appeal under chapter 75. See, e .g., Marren v. Department of Justice,
51 M.S.P.R. 632, 638 (1991), affd, 980 F.2d 745 (Fed. Cir. 1992) (Table), modified on
other grounds by Robinson v. U.S. Postal Service, 63 M.S.P.R. 307, 323 n .13 (1994).

Appendix B

8
In Whitmore, the court held that all of the pertinent evidence must be
considered in evaluating whether the agency has met its burden. See Whitmore,
680 F.3d at 1368. The court noted:
The laws protecting whistleblowers from retaliatory personnel
actions provide important benefits to the public, yet whistleblowers
are at a severe evidentiary disadvantage to succeed in their defenses.
Thus, the tribunals hearing those defenses must remain vigilant to
ensure that an agency taking adverse employment action against a
whistleblower carries its statutory burden to prove - by clear and
convincing evidence - that the same adverse action would have been
taken absent the whistleblowing.
Id.t 680 F.3d at 1377. Therefore, in order to determine whether the agency has
met its burden, all of the pertinent evidence must be considered. Id. at 1368.
2017 Suspension
The agency proposed a 10-day suspension for the appellant on December
30, 2016 (AF, Tab 9, p. 283), which was mitigated to a 7-day suspension by letter
dated March 10, 2017 (Id., p. 287). The charges read as follows:
Background: As a Medical Records Technician you are responsible
for appropriately responding to Release of Information (ROI)
requests. You have had extensive training in the protocols governing
the release of Private Health Information (PHI) and Personally
Identifiable Information (PII).
CHARGE 1: Failure to safeguard confidential information
SPECIFICATION A: On October 13, 2016, the ROI office reported
to the Privacy Office that you inappropriately and without proper
authority provided Veteran A with a CD copy of Veteran B’s medical
records (Violation PSETS 144711). You are charged with failure to
safeguard confidential information.
SPECIFICATION B: On August 10, 2016, the Release of
Information Office (ROI) notified the Privacy Office that it had
performed a quality assurance review on the Medical Records
Technicians. The review determined that two requests/authorizations
were missing for which you were responsible. You were provided
with two hours to locate the missing requests/authorizations and

Appendix B

9
failed to do so (Violation PSETS 141450). You are charged with
failure to safeguard confidential information.
SPECIFICATION C: On August 4, 2016, ROI notified the Privacy
Office that a release of information request for which you were
responsible was missing and search efforts had.been unsuccessful
(Violation PSETS 141273).
You are charged with failure to
safeguard confidential information.
SPECIFICATION D: On July 11, 2016, ROI reported to the
Privacy Office that it had performed a quality assurance review on
the Medical Records Technicians. The review determined that two
requests/authorizations were missing for which you were
responsible. You were provided with two hours to locate the missing
requests/authorizations and failed to do so (Violation PSETS
139902). On July 28, 2016, ROI reported that one of the requests
had been discovered. The other was never recovered. You are
charged with failure to safeguard confidential information.
CHARGE 3: Negligence causing waste and delay
SPECIFICATION A:
Because you misplaced confidential
information as discovered on August 10, 2016 (Violation PSETS
141273), the Agency was required to offer credit reporting to the
affected Veteran. Because of your improper loss of confidential
information, Agency resources had to be employed to manage and
mitigate the danger this created for the Veteran. You are charged
with negligence causing waste and delay.
SPECIFICATION B:
Because you misplaced confidential
information as discovered on August 4, 2016 (Violation PSETS
141450), the Agency was required to offer credit reporting to the
affected Veteran. Because of your improper loss of confidential
information, Agency resources had to be employed to manage and
mitigate the danger this created for the Veteran. You are charged
with negligence causing waste and delay.
Because you misplaced confidential
SPECIFICATION C:
information as discovered on July 11, 2016 (Violation PSETS
139902), the Agency was required to offer credit reporting to the
affected Veteran. Because of your improper loss of confidential
information, Agency resources had to be employed to manage and

Appendix B

10
mitigate the danger this created for the Veteran. You are charged
with negligence causing waste and delay.
CHARGE 3: Disruptive behavior
SPECIFICATION A: On October 31, 2016, when you returned
from your break, the Lead Medical Records Technician asked you to
assist a Veteran. Rather than helping the Veteran with the disc he
needed, you said to the Lead, “you’re sitting there I don’t know why
you can’t just give it to him” or words to that effect and told her the
disc was in the desk where the Lead was sitting. The Lead looked in
the desk but didn’t find the disc; you then stated, “oh, then, he will
have to wait” or words to that effect. You exhibited this rudeness
and poor customer service in front of a Veteran. This conduct is a
violation of VA Healthcare System Memorandum 518-12-05-053,
Codes of Conduct. You are charged with disruptive behavior.
SPECIFICATION B: On October 26, 2016, the ROI supervisor
spoke with a Veteran’s wife about their visit to ROI on or around
October 14, 2016. The Veteran’s wife relayed that you were rude
and disrespectful regarding the completion of a records form. She
described your behavior as “very nasty and asserted that you were
harsh regarding the form being incomplete, scolding and snapping at
her, “I told you, I told you” or words to that effect. The Veteran and
his wife were so distressed they submitted a written complaint
through the “Speak to the Director” process which stated in part, “it
felt like she was going out of her way to frustrate my wife.” Your
behavior was unacceptable and the opposite of good customer
service. This conduct is a violation of VA Healthcare System
Memorandum 518-12-05-053, Codes of Conduct. You are charged
with disruptive behavior.
SPECIFICATION C: On July 26, 2016, you were asked to help a
patient Veteran by the Lead Medical Records Technician. Rather
than doing so, you became belligerent and loud with the Lead,
stating that it was not his place to assign you to assist the Veteran.
You exhibited this conduct both in front of a Veteran and the ROI
supervisor. This conduct is a violation of VA Healthcare System
Memorandum 518-12-05-053, Codes of Conduct. You are charged
with disruptive behavior.

Appendix B

11
AF, Tab 9, pp. 283-285. The agency’s deciding official sustained Specifications
A, B, and C of Charge 1 (3 of 4 specifications); Specifications A and B of Charge
2 (2 of 3 specifications); and Specifications A, B, and C of Charge 3 (3 of 3
specifications).

Id., p. 287.

For the reasons set forth below, I find that

application of the Carr factors establishes by clear and convincing evidence that
the agency would have suspended the appellant for misconduct in 2017 even in
the absence of her protected disclosure(s).
Regarding Charge 1, “Failure to safeguard confidential information,” I note
first that the appellant denied none of the sustained specifications during her
hearing testimony. HCD, testimony of appellant. And, specific documentation
supporting the sustained specifications is contained in the record. For example,
with respect to Charge 1, Specification A, a handwritten memorandum from a
veteran dated October 13, 2016, which states: “I heard that another gentleman
was given an envelope with my disc and information by mistake. He returned it
while I was sitting with Tonya Knowles and she was looking for my info in that
envelope. No problem for me. My info is still private.” AF, Tab 32, p. 123
(Agency Exhibit 6). This incident was also documented in a memorandum from
the agency Privacy/FOIA office, dated October 24, 2016 and entitled “Privacy
Violation Memo - PSETS 144711.” Id., p. 25 (AJ Exhibit 2). Regarding Charge
1, Specification B, another memorandum from the Privacy/FOIA office, dated
August 15, 2016 and entitled “Privacy Violation Memo — PSETS 141450,”
concluded that the appellant had violated agency rules for safeguarding
confidential information by losing two requests/authorizations by veterans for
medical records.

Id., p. 28.

In the unrelated (but informative)

context of a

misconduct action under 5 U.S.C. Chapter 75, the Board has held that proof of
one or more specifications supporting a charge is sufficient to sustain the charge.
See Greenough v. Department of the Army, 73 M.S.P.R. 648, 657 (1997), review
dismissed, 119 F.3d 14 (1997); James v. Department of the Air Force, 73
M.S.P.R. 300, 303 (1997). I find that, given the prohibitions against improper

Appendix B

12
access and disclosure of patient information found in statutes (e.g., the Privacy
Act and HIPAA) and agency regulations (see, e.g., AF, Tab 9, p. 316), I find it is
simply beyond question that the appellant's sustained misconduct referenced in
Charge 1 was quite serious.
With respect to Charge 2, “Negligence causing waste and delay,” the
August 15, 2016 Privacy/FOIA Office memorandum referenced in the preceding
paragraph indicates the agency’s Network Security Operations Center determined
that credit monitoring was required for two veterans as a result of the appellant
losing their requests/authorizations for medical records.

AF, Tab 32, p. 28.

During her hearing testimony, the appellant did not deny that her actions had
necessitated the agency’s bearing the expense of credit monitoring for veterans
impacted by her loss of their records. I find that the appellant’s carelessness with
confidential patient information resulting in expenditure of agency resources was
negligent, caused “waste” as alleged in the charge, and represented serious
misconduct.
The agency presented little (if any) testimony or evidence to support the
allegations made in Charge 3 “Disruptive behavior.” However, I find that its
strong evidence in support of Charges 1 and 2 was sufficient to sustain those
charges and justify the imposed 7-day suspension.
I must also examine the existence and strength of any motive to retaliate on
the part of the agency officials who were involved in the decision to suspend the
appellant in 2017. In Whitmore, the court stated the following:
Since direct evidence of a proposing or deciding official’s retaliatory
motive is typically unavailable (because such motive is almost
always denied), federal employees are entitled to rely on
circumstantial evidence to prove a motive to retaliate.
Whitmore, 680 F.3d at 1371. Here, the appellant’s immediate supervisor, Rosa
Sly, testified that she requested disciplinary action against the appellant based
solely on the conduct described in the December 30, 2017 proposal letter. She
denied that the appellant’s whistleblowing activity had any role in that request.

Appendix B

13
The appellant’s examination of Ms. Sly focused on performance appraisal ratings
and other unrelated matters, rather than retaliation. HCD, testimony of Sly. I
find no basis in the record for retaliatory motivation on Ms. Sly’s part.
Donna Griffin-Hall was the agency’s proposing official for the 2017
suspension of the appellant. She testified that she issued the notice of proposed
suspension based on an agency fact-finding investigation concerning the
appellant’s alleged disruptive behavior (Charge 3). She added that the “failure to
safeguard” and “negligence” issues (Charges 1 and 2) arose while the initial fact­
finding investigation was in progress.

Griffin-Hall further testified that Sly

requested disciplinary action against the appellant, and that she (Griffin-Hall)
fully coordinated the proposed suspension with the agency’s human resources
staff.

While Griffin-Hall admitted knowledge of the appellant’s protected

disclosure(s), she denied they played any role in her proposing the appellant’s
suspension and said the same action would have been proposed in the absence of
the disclosure(s).

HCD, testimony of Griffin-Hall.

I find no evidence in the

record that Griffin-Hall suffered negative consequences as a result of the
appellant’s disclosure(s), nor any other evidence suggesting that the appellant’s
disclosure(s) motivated Griffin-Hall to issue the proposal letter.
Kristine Brown served as the agency’s deciding official for the 2017
suspension of the appellant.

In that capacity, she heard and considered the

appellant’s oral reply to the charges, and also considered the appellant’s written
reply. Brown testified without contradiction that, in both the oral reply and the
written reply, the appellant admitted and took responsibility for the charged
privacy-related misconduct. Brown said she did not sustain two specifications,
and decreased the imposed penalty to seven days, due to certain mitigating
factors. She further testified that she became aware of protected disclosures or
activity by the appellant only during the oral/written reply process.

Brown

maintained her decision was based on the evidence before her concerning the

Appendix B

14
appellant’s misconduct, and not on any other considerations. HCD, testimony of
Brown.

As with Griffin-Hall, I find no evidence in the record that Brown

suffered negative consequences as a result of the appellant’s disclosure(s), nor
any other evidence suggesting that the disclosure(s) motivated her to sustain the
appellant’s proposed suspension.

Indeed, had Brown harbored any retaliatory

animus toward the appellant I find it highly unlikely she would have failed to
sustain two specifications or mitigated the penalty from ten to seven days.
Finally, neither party presented meaningful evidence regarding the extent
to which the agency may take similar actions against employees who did not
engage in protected activity but who are otherwise similarly situated to the
appellant.

Consequently, I find that there is no relevant comparator evidence.

See Runstrom v. Department of Veterans Affairs, 123 M.S.P.R. 169, Tf 18 (2016)
(finding that, due to lack of evidence that there were any employees similarly
situated to the appellant, the third Carr factor was not significant for analysis).
Based on the above, I find this factor is not relevant in the present case.
Thus, having considered all of the pertinent evidence, I find that the agency
established by clear and convincing evidence that it would have suspended the
appellant for seven calendar days in 2017,

even absent her protected

disclosure(s).
2017 information security violations
In a memorandum dated January 10, 2017, the agency’s Information
Security Officer, Gina Rhodes, stated the following:
1. On Tuesday, January 10, 2017, the Information Security Office
conducted an Un-announced Environment of Care (EOC) rounds in
an area under your supervision.
2. We have found a violation of the rules of behavior, or other
significant security vulnerability as follows:
Room: ROI

Appendix B

15

User: Tonya Knowles
Finding: PHI/PII left unattended/unsecured on desk with user not
present. ~5-l0 impacted patients records.
AF, Tab 7, p. 34 of 52 (fax page numbers) (admitted agency exhibit).

The

memorandum went on to cite agency rules requiring its employees to, inter alia,
safeguard printed and electronic individually identifiable information.

Id.

Rhodes testified without contradiction that she had never met the appellant prior
to the hearing, and further stated that she had issued similar memoranda
concerning violations by five other individuals on that same day, January 10,
2017.

She said she was unaware of any protected disclosure by the appellant

prior to that date, and would have issued the same memorandum even if she knew
of such a disclosure. HCD, testimony of Rhodes. During her hearing testimony,
the appellant did not deny leaving PHI/PII unattended and unsecured on her desk
on the date in question.

In view of the foregoing, I find that the appellant’s

protected disclosure(s) did not constitute a contributing factor in the agency’s
issuance of the January 10, 2017 memorandum. Further, I find that even if the
appellant’s disclosure(s) had been known to Rhodes and thereby contributed to
issuance of the memorandum, the agency presented strong evidence in support of
the January 10, 2017 memorandum, that there is no evidence of motive to
retaliate on the part of Rhodes, and that relevant comparator evidence indicates a
lack of retaliatory intent by Rhodes.

Therefore, applying the Carr factors, I

would find that the agency established by clear and convincing evidence that it
would have issued the January 10, 2017 information security violation
memorandum even absent the appellant’s protected disclosure(s) and/or activity.
Similarly, in a memorandum dated February 7, 2017, entitled “Violation of
Rules of Behavior - Unsecured PII/PHI - Ms. Tonya Knowles,” the agency’s

Appendix B

16
Assistant Chief, Health Information Management, Devona Hollingsworth, stated
the following, in pertinent part:
1. This memorandum is in response to the privacy violation
identified on January 17, 2017, in which Ms. Tonya Knowles
failed to safeguard confidential information, resulting in PHI/PII
being left unsecured/unattended in the dual tray to the right of the
computer station # 1 in the Release of Information (ROI) section.
2. While walking around to ensure all items have been secured
throughout the ROI section, Ms. Devona Hollingsworth
discovered that Ms. Knowles left a Pre-Complaint form with her
(Ms. Knowles’) full name, address, and social security number
faced-up, in the top tray to the right of the chair of computer
station # 1, where Ms. Knowles was performing duties for the
day. Ms. Rosa Sly and Ms. Mary Ann Branesky were witnesses
to the form that was found.
3. On January 18, 2017, Ms. Hollingsworth reminded Ms. Knowles
that it is her job to protect any and all PII information, to include
her own, and alerted Ms. Knowles that this was an added
violation to the ISO violation she had on January 10, 2017. Ms.
Hollingsworth informed Ms. Knowles she would submit a ROC to
Ms. Knowles’ supervisor, Ms. Rosa Sly, who would discuss any
additional actions that would be developed from the incident.
4. In accordance to the ISO Office, Ms. Knowles’ additional
incident has warranted her account to be disabled and she must
read, sign, and adhere to the Department of Veterans Affairs
Information Security Rules of Behavior.
AF, Tab 7, p. 39 of 52 (fax page numbers) (admitted agency exhibit).

The

memorandum went on to cite the same agency rules identified in the January 10,
2017 memorandum, which require employees to, inter alia, safeguard printed and
electronic individually identifiable information. Id.
Although Devona Hollingsworth did not testify at the hearing, Rosa Sly
confirmed that she witnessed the relevant event as described in the February 7,
2017 memorandum.

HCD, testimony of Sly.

Appendix B

The appellant did not deny the

17
violation alleged therein, nor did she present evidence or argument that
Hollingsworth had knowledge of her disclosure(s) or any other motive to retaliate
against her based on her (appellant’s) previous protected disclosure(s).
testimony of appellant.

Id.,

Accordingly, I find that the appellant’s protected

disclosure(s) did not constitute a contributing factor in the issuance of the
February 7, 2017 memorandum. Further, even if Hollingsworth knew about the
appellant’s protected disclosure(s), the agency presented strong evidence in
support of the February 7, 2017 memorandum, that there is no evidence of motive
to retaliate on the part of Hollingsworth, and no relevant comparator evidence.
Thus, applying the Carr factors, I would find that the agency established by clear
and convincing evidence that it would have issued the February 7, 2017
information security violation memorandum even absent the appellant’s protected
disclosure(s) and/or activity.
2018 suspension
By letter dated March 26, 2018, the agency proposed to suspend the
appellant for fourteen days without pay based on the following charges:
CHARGE 1: Failure to Follow Instructions
SPECIFICATION A:
On October 23, 2017, your immediate
supervisor instructed you to send her all of the emails that pertained
to your accusation that your co-worker, Loria Royer, had altered
your email message regarding a work assignment/productivity report.
You told your immediate supervisor “No” and that she would need to
see your attorney. You failed to provide the requested information
to your supervisor as instructed.
SPECIFICATION B: On January 18, 2018, at 9:22 AM, I sent you
an email stating that I wanted to speak with you directly. In a
subsequent email, you stated that you did not feel comfortable
speaking with any management official alone. On January 18, 2018,
at 9:33 AM, you then stated that it was against policy as a
subordinate does not have to meet with a management official alone

Appendix B

18
without representation. You failed to speak with me with or without
representation.
SPECIFICATION C: On January 24, 2018, at 1:03 PM, I sent an
email directing you to discontinue the repeated emails related to the
verbal counseling that your received from your immediate
supervisor. I also directed you to set up a meeting with your
immediate supervisor and AFGE to discuss this matter face-to-face.
You failed to set up the meeting as instructed and you again sent an
email to your supervisor and me.
CHARGE 2: Disruptive Behavior
SPECIFICATION A: On August 14, 2017, at 8:51 AM, you sent an
email to the Associate Director and the Secretary of Veterans
Affairs. Your email was highly critical of management officials and
accused the Bay Pines VA Healthcare System of discouraging
employees from filing EEO complaints,
Your email was
disrespectful towards the Associate Director and inappropriate. Your
actions violated VAHCS Memorandum 516-12-05-053, Codes of
Conduct.
SPECIFICATION B: On October 23, 2017, at 12:27 PM, you sent
an email to Loria Royer and accused her of altering an email
message that was sent to you. Ms. Royer denied altering this email
message and notified her immediate supervisor. Your accusation
against Ms. Royer was unfounded and caused disruption in the
workplace. Your actions violated VAHCS Memorandum 516-12-05053, Codes of Conduct.
AF, Tab 9, pp. 273-274. By letter dated April 20, 2018, the agency’s deciding
official sustained the charges, all specifications, and the proposed 14-day penalty.
Id., p. 277. For the reasons set forth below, I find that application of the Carr
factors establishes by clear and convincing evidence that the agency would have
suspended the appellant for misconduct in 2018 in the absence of her protected
disclosure(s).

Appendix B

19
Very little hearing testimony was presented by either party regarding the
charges in the 2018 suspension proposal. However, I find that record evidence
supports their validity. Specifically, the agency file contains a copy of the March
26, 2018 proposal notice with handwritten annotations by the appellant. AF, Tab
9, pp. 150-151. Significantly, none of the appellant’s handwritten notes deny the
facts alleged in any charge or specification. Rather, beside each specification the
appellant wrote: “violation of master agreement,” or similar verbiage, indicating
her belief that the agency had broken the union contract in directing her to take
the actions described in the specifications (Charge 1) or in sanctioning her for
sending certain email messages (Charge 2).8
However, with respect to Charge 1 (“Failure to Follow Instructions”), even
a violation of the union contract would not immunize the appellant from
discipline for failing to follow the instruction at issue. The “obey now grieve
later” rule has long been recognized as one that is necessary to an agency's ability
to effectively manage the workplace. The rule generally requires an employee to
comply with an agency order, even where the employee may have substantial
reason to question it, while taking steps to challenge its validity through whatever
channels are appropriate.

See Cooke v. U.S. Postal Service, 67 M.S.P.R. 401,

407-08, affd, 73 F.3d 380 (Fed. Cir. 1995) (Table); Bigelow v. Department of
Health & Human Services, 750 F.2d 962, 965 (Fed. Cir. 1984). The rule reflects
the fundamental management right to expect that its decisions will be obeyed and
its instructions carried out.

See Nagel v. Department of Health & Human

Services, 707 F.2d 1384, 1387 (Fed. Cir. 1983) (permitting employees to refuse to
perform because of disagreements with management violates the first law of the
work place, namely that it is a place for doing work).

8 In an IRA appeal, an appellant cannot raise affirmative defenses such as claims of
discrimination or harmful procedural error. See 5 C.F.R. § 1209.2(c).

Appendix B

20
The recognized exceptions to the requirement that agency orders be obeyed
apply only in extreme or unusual circumstances. See, e.g., New v. Department of
Veterans Affairs, 142 F.3d 1259, 1264 (Fed. Cir. 1998); Gragg v. United States
Air Force, 13 M.S.P.R. 296, 299 (1982) (orders placing employee in dangerous
situation); Fleckenstein v. Department of the Army, 63 M.S.P.R. 470, 474 (1994)
(order to make disclosure that could cause irreparable harm). The “obey now
grieve later” rule also has been rejected when an employer's order is illegal.
Garcia v. N.L.R.B., 785 F.2d 807, 812 (9th Cir.1986).
Here, the appellant does not credibly allege it was illegal to provide her
supervisor with emails relating to her (appellant’s) accusations against her co­
worker, to talk to her (the supervisor) directly, or to discontinue sending repeated
emails related to a verbal counseling she received, or that following those
instructions placed her in a dangerous situation or caused her irreparable harm.
The agency was therefore entitled to impose discipline for the appellant’s
undenied failure to follow instructions. In other words, I find that Charge 1 is
supported by strong evidence.
Regarding Charge 2, the Board has held that, in order to prove a charge of
disruptive behavior, the agency must show: (1) the appellant engaged in certain
inappropriate conduct; and (2) that conduct caused a disruption. See, e.g., Colon
v. Department of the Navy, 58 M.S.P.R. 190, 197-98 (1992).

In view of this

standard, Charge 2, Specification A appears problematical. The agency did not
identify the referenced August 14, 2017 email message to the Secretary during
the hearing, and I am unable to locate it in the record,
specification

itself indicates

the

email

message

was

Moreover, the

disrespectful

and

inappropriate, but no testimony or evidence demonstrates that it caused
disruption. Therefore, even though the appellant did not deny sending the email
in question, I find this specification is not supported by available evidence.

Appendix B

21
As for Specification 2, the appellant’s handwritten notes on the proposal
letter do not deny the facts alleged in the specification. In this instance, the email
message in question appears in the record (AF, Tab 9, p. 217-218), and in it the
appellant clearly accuses her co-worker (her lead, per hearing testimony), Loria
Royer, of alteration (“Ms. Royer attempting to ALTER emails”).

Id.; HCD,

testimony of Royer. Royer testified that she changed only the subject line in the
appellant’s

original

message

from

“Assignment

for

10/23/2017”

to

“10/23/2017: productivity: 12:00p” - and did not modify any content in the body
of the appellant’s message. Royer further stated that the appellant’s accusation
upset her because she feared it would damage her career. For that reason, she
said, she took up the matter with her supervisor as alleged in the specification.
HCD, Testimony of Royer.

I find that Royer’s reaction to the appellant’s

accusation clearly indicates disruption in the workplace, and that Charge 1,
Specification B is supported by strong evidence.
Donna Griffin-Hall was the agency’s proposing official for the 2018
suspension of the appellant.

As noted regarding the 2017 suspension she

proposed, Griffin-Hall said her knowledge of the appellant’s protected
disclosure(s) played no role in her proposing the appellant’s suspension in 2018,
and she added that the same action would have been proposed in the absence of
the disclosure(s).

HCD, testimony of Griffin-Hall.

I find no evidence in the

record that Griffin-Hall suffered negative consequences as a result of the
appellant’s

disclosure(s),

nor

any other

evidence

suggesting

that

such

disclosure(s) motivated her to issue the 2018 proposal letter.
Jonathan Benoit was the agency’s deciding official for the 2018 suspension.
He testified that the appellant informed him of her whistleblowing activity during
her oral reply to the charges. However, he maintained that this knowledge did
not factor into his decision to sustain the charges and the proposed 14-day
suspension. Benoit also stated that he arrived at the agency’s Bay Pines facility,

Appendix B

22
where the matters at issue in this appeal transpired, only a short time before
serving as deciding official for the appellant’s 2018 proposed suspension. HCD,
testimony of Benoit.

I find that no evidence shows Benoit suffered negative

consequences as a result of the appellant’s previous disclosure(s), nor do I
perceive any other evidence suggesting that such disclosure(s) motivated him to
sustain the charges or the proposed suspension.
Neither party presented meaningful evidence regarding the extent to which
the agency may take similar actions against employees who did not engage in
protected activity but who are otherwise similarly situated to the appellant.
Consequently, I find that there is no relevant comparator evidence. Runstrom,
123 M.S.P.R. 169, If 18.

Based on the above, I find this Carr factor is not

relevant in the present case.
Therefore, having considered all of the pertinent evidence, I find that the
agency established by clear and convincing evidence that it would have
suspended the appellant for 14 calendar days in 2018, even absent her protected
disclosure(s).
2018 proposed removal
By letter dated June 29, 2018, the agency proposed to remove the appellant
from federal employment due to alleged misconduct. In pertinent part, the notice
of proposed removal (NOPR) reads as follows:
BACKGROUND: As a Medical Records Technician, you have had
extensive training in the protocols governing the release of Private
Health Information (PHI) and Personally Identifiable Information
(PII). On April 5, 2018, it was reported to the Privacy Office that
you allegedly sent a Veterans PII to your personal email account.
The email contained the Veteran’s full name and a partial Social
Security Number. On April 5, 2018 the Data Breach Response
Service (DBRS) was notified of the complaint (Privacy and Security
Event Tracking System (PSETS) 171900). The Privacy Office
conducted an investigation and on April 17, 2018, the DBRS was
notified of these findings. On April 19, 2018, the Privacy Office

Appendix B

23
received and reviewed the emails that were sent to your personal
email address and discovered that 24 unique Veterans were involved.
CHARGE 1: Failure to Cooperate
SPECIFICATION A: On May 21, 2018, you were provided an
opportunity to address questions from the Privacy office in reference
to PSETS 171900. The questions from the Privacy Office were
presented to you with AFGE/Union representation by the Chief of
the Business Office. In response to these questions, you stated, “My
rights for VA Directive 0700 is [are] being violated as well as the
Master Agreement - Investigations. This is an illegal act and I have
alleged disparate treatment. I will not answer questions in this
fashion.” Your failure to cooperate regarding the questions provided
by the Privacy Office violated VAHCS Memorandum 516-12-05053, Codes of Conduct.
SPECIFICATION B:
On May 21, 2018, you were issued a
confirmation memo by the Privacy Office. The Privacy Office
issued this memo so that you could confirm that all VA sensitive
data was deleted in its entirety, that all VA sensitive data that was
transmitted, transported, printed, copied or stored outside of VA
owned or managed facilities without prior approval was returned to
VA custody, and that no other VA sensitive data has been removed
from VA custody without prior written approval. You did not sign
the confirmation memo and instead wrote: “Acknowledge Receipt”
in the signature block section. Your failure to cooperate with the
confirmation memo provided by the Privacy Office violated VAHCS
Memorandum 516-12-05-053, Codes of Conduct.
CHARGE 2: Failure to Safeguard Confidential Information
SPECIFICATION A: On April 4, 2018, at 4:27 p.m., you sent an
email that contained a Veteran’s full name and partial social security
number to your personal email address, tknowles70@gmail.com
Your actions violated VAHCS
(Violation PSETS 171900).
Memorandum 516-18-00-064, Privacy Policy.

Appendix B

24
SPECIFICATION B: On March 26, 2018, you sent an email that
contained an unredacted Bay Pines Police Investigative Report from
your personal email address, tknowles70@gmail.com. to your VA
email address (Violation PSETS 171900). The investigative report
contained full names, partial social security numbers, dates of birth,
home addresses and the driver’s license numbers of these
individuals. Your actions violated VAHCS Memorandum 516-1800-064, Privacy Policy.
SPECIFICATION C: On November 16, 2017, at 3:18 p.m., you
sent
an
email
to
your
personal
email
address,
tknowles70@gmail.com. in which the subject line identified a
Veteran by his full name and medical condition (Violation PSETS
171900). Your actions violated VAHCS Memorandum 516-18-00064, Privacy Policy.
SPECIFICATION D:
On October 23, 2017, at 12:22 p.m., you
sent an email that contained the full names and social security
numbers of fifteen Veterans to your personal email address,
tknowles70@gmail.com (Violation PSETS 171900). Your actions
violated VAHCS Memorandum 516-18-00-064, Privacy Policy.
SPECIFICATION E: On September 28, 2017, at 10:23 a.m., you
sent an email that contained the partial name of a Bay Pines VA
Employee/Veteran
your
to
personal
email
address,
tknowles70@gmail.com (Violation PSETS 171900). The email that
you sent contained PHI about the Bay Pines VA Employee/Veteran.
Your actions violated VAHCS Memorandum 516-18-00-064, Privacy
Policy.
SPECIFICATION F: On July 12, 2017, at 3:40 p.m., you sent an
email that contained the full name and partial social security number
of a Veteran to your personal email address, tknowles70@gmail.com
(Violation PSETS 171900).
Your actions violated VAHCS ,
Memorandum 516-18-00-064, Privacy Policy.
SPECIFICATION G: On May 16, 2017, at 2:03 p.m., you sent an
email that contained the full name and telephone number of a
Veteran to your personal email address, tknowles70@gmail.com

Appendix B

25
(TwaKY Knowles). Your actions violated VAHCS Memorandum
516-18-00-064, Privacy Policy.
SPECIFICATION H: On April 28, 2017, at 11:11 a.m., you sent an
email that contained an attachment with the full name and telephone
number of a Veteran to your personal email address,
tknowles70@gmail.com (Violation PSETS 171900). Your actions
violated VAHCS Memorandum 516-18-00-064, Privacy Policy.
SPECIFICATION I: On February 3, 2017, at 5:54 p.m., you
forwarded an email that contained a Veteran’s full name to your
personal email address, tknowles70@gmail.com (Violation PSETS
171900). Your actions violated VAHCS Memorandum 516-18-00064, Privacy Policy.
SPECIFICATION J: On February 3, 2017, at 7:58 a.m., you sent
an email that contained the full name and telephone number of a
Veteran to your personal email address, tknowles70@gmail.com
(Violation PSETS 171900).
Your actions violated VAHCS
Memorandum 516-18-00-064, Privacy Policy.
SPECIFICATION K: On July 16, 2016, at 1:13 p.m., you sent an
email that contained an attachment with the last names of two
Veterans from your personal email address, tknowles70@gmail.com.
to your second-level supervisor’s VA email address (Violation
PSETS 171900). Your actions violated VAHCS Memorandum 51618-00-064, Privacy Policy.
AF, Tab 9, pp. 182-184. There is no dispute the agency has not yet issued
a final decision regarding its proposed removal of the appellant. For the
reasons set forth below, I find that application of the Carr factors
establishes by clear and convincing evidence that the agency would have
proposed removal of the appellant for misconduct in June 2018 even in the
absence of her protected disclosure(s).
Donna Griffin-Hall was the agency’s proposing official for the
agency’s 2018 proposed removal of the appellant.

Appendix B

She testified that she

26
issued the notice of proposed removal suspension based on conclusions
presented to her by the agency’s Privacy Office.
Griffin-Hall.

HCD, testimony of

The record contains a memorandum, dated May 25, 2018,

entitled “Privacy Violation Memo — PSETS 171900,” in which Privacy
Officer Deanna Baczewski concluded the following, in pertinent part:
2) On April 27, 2018, the Privacy Office received and
reviewed emails sent to tknowles70@gmail.com and
discovered that information pertaining to 24 unique Veterans
was involved. The results were as follows:
a) 15 full names and full SSNs
b) 2 full names, partial SSN, dates of birth, addresses and
driver's license numbers
c) 2 full names with personal telephone numbers
d) 1 full name and partial SSN of a deceased Veteran
e) 1 full name
f) 2 last names
3) On May 21, 2018, Ms. Knowles was provided the
opportunity to address the Privacy Office’s inquiries, which
were documented in a list of questions and presented to her by
the Chief, Business Office with AFGE/union representation.
Ms. Knowles response to the questions presented by the
Privacy Office was “My rights for VA Directive 0700 is being
violated as well as the Master Agreement - Investigations.
This is an illegal act and I have alleged disparate treatment. I
will not answer questions in this fashion.”

C. Confirmation Memo
1) On April 30, 2018, the Privacy Office guidance from the DBRS on
how to proceed with resolving this event. The DBRS asked that
confirmation be obtained from the employee that all VA sensitive
data has been deleted from their personal email account in effort to
mitigate any further risk.
2) On May 21, 2018, Ms. Knowles refused to sign the confirmation
memo issued by the Privacy Office. Rather she stated “I want it to be
noted that Donna Griffin-Hall and Tatishka Thomas started an

Appendix B

27
investigation at or around 2:20 PM, not privacy where a slew of
questions were asked and the questions were redundant. I feel as if
this questioning is ongoing harassment and retaliation.”
AF, Tab 9, pp. 190-191.9

I find that subparagraph 2) quoted above directly

support the specifications found in Charge 2 in the NOPR, that subparagraph 3)
quoted above directly supports Charge 1, Specification A in the NOPR,10 and that
paragraph C quoted above directly supports Charge 1, Specification B in the
NOPR.11 I further find that the appellant did not deny the facts alleged in either
of the charges or their specification. Additionally with regard to Charge 1, the
“obey now grieve later” rule discussed above in the context of the 2018
suspension supports the charge.

Accordingly, I find that both Charge 1 and

Charge 2 in the NOPR are supported by strong evidence.
As also discussed above regarding the 2017 and 2018 suspensions she
proposed,

Griffin-Hall said her knowledge of the appellant’s protected

disclosure(s) played no role in her proposing the appellant’s removal in June
2018, and she added that the same action would have been proposed in the
absence of the disclosure(s). HCD, testimony of Griffin-Hall. I find no evidence
in the record that Griffin-Hall suffered negative consequences as a result of the

9 Copies of several of the email messages containing confidential information which the
appellant sent to her personal email account are found in the record at AF, Tab 9, pp.
216 (Charge 2, Specification C), 217 (Charge 2, Specification B), 220 (Charge 2,
Specification E), 221 (Charge 2, Specification F), and 222 (Charge 2, Specification G).
The record also contains an email message from a union official to the appellant - prior
to all but one (Charge 2, Specification K) of the email messages referenced in Charge 2
which stated “Please do not send patient information to your personal emial” [sic]. AF,
Tab 9, p. 262.
10 A copy of the Privacy Office’s questions which the appellant refused to sign is in the
record at AF, Tab 9, p. 204.
11 A copy of the confirmation memorandum which the appellant was charged with
refusing to sign is in the record at AF, Tab 9, p. 103.

Appendix B

28
appellant’s

disclosure(s),

nor

any

other

evidence

suggesting

that such

disclosure(s) motivated her to issue the June 2018 NOPR.
Neither party presented meaningful evidence regarding the extent to which
the agency may take similar actions against employees who did not engage in
protected activity but who are otherwise similarly situated to the appellant.
Consequently, I find that there is no relevant comparator evidence. Runstrom,
123 M.S.P.R. 169, % 18.

Based on the above, I find this Carr factor is not

relevant in the present case.
Therefore, having considered all of the pertinent evidence, I find that the
agency established by clear and convincing evidence that it would have proposed
the appellant’s removal in June 2018, even absent her protected disclosure(s).
Conclusion
For the above reasons, I find that corrective action is not warranted. To the
extent the appellant alleged that she was subjected to EEO-type discrimination,
the Board has long held that disclosures that an agency engaged in discrimination
and violated discrimination law are covered under 5 U.S.C. §§ 2302(b)(1) and
(b)(9), and they are excluded from section 2302(b)(8). See, e.g., Parikh v.
Department of Veterans Affairs, 110 M.S.P.R. 295,

24 (2008); see also

Applewhite v. Equal Employment Opportunity Commission, 94 M.S.P.R. 300, ^[13
(2003) (disclosures limited to matters of discrimination and related retaliation
claims are excluded from the coverage of the Whistleblower Protection Act); see
generally 5 C.F.R. § 1209.2(c) (the Board will not consider discrimination claims
in an IRA appeal). Furthermore, claims of discrimination and retaliation, even if
exhausted before the Office of Special Counsel, are not cognizable as
whistleblower claims. See Applewhite, 94 M.S.P.R. 300, fflf 9, 10, 13.

Appendix B

29
DECISION
The appellant’s request for corrective action is DENIED.

FOR THE BOARD:

/S/
Jeffrey S. Morris
Administrative Judge

NOTICE TO PARTIES CONCERNING SETTLEMENT
The date that this initial decision becomes final, which is set forth below, is
the last day that the parties may file a settlement agreement, but the
administrative judge may vacate the initial decision in order to accept such an
agreement into the record after that date. See 5 C.F.R. § 1201.112(a)(4).
NOTICE TO APPELLANT
This initial decision will become final on May 27. 2019. unless a petition
for review is filed by that date. This is an important date because it is usually the
last day on which you can file a petition for review with the Board. However, if
you prove that you received this initial decision more than 5 days after the date of
issuance, you may file a petition for review within 30 days after the date you
actually receive the initial decision. If you are represented, the 30-day period
begins to run upon either your receipt of the initial decision or its receipt by your
representative, whichever comes first. You must establish the date on which you
or your representative received it. The date on which the initial decision becomes
final also controls when you can file a petition for review with one of the
authorities discussed in the “Notice of Appeal Rights” section, below. The
paragraphs that follow tell you how and when to file with the Board or one of
those authorities. These instructions are important because if you wish to file a
petition, you must file it within the proper time period.

Appendix B

30
BOARD REVIEW
You may request Board review of this initial decision by filing a petition
for review.
If the other party has already filed a timely petition for review, you may
file a cross petition for review. Your petition or cross petition for review must
state your objections to the initial decision, supported by references to applicable
laws, regulations, and the record. You must file it with:
The Clerk of the Board
Merit Systems Protection Board
1615 M Street, NW.
Washington, DC 20419
A petition or cross petition for review may be filed by mail, facsimile (fax),
personal or commercial delivery, or electronic filing. A petition submitted by
electronic filing must comply with the requirements of 5 C.F.R. § 1201.14, and
may

only

be

accomplished

at

the

Board's

e-Appeal

website

(https://e-appeal.mspb.gov).

NOTICE OF LACK OF QUORUM
The Merit Systems Protection Board ordinarily is composed of three
members, 5 U.S.C. § 1201, but currently there are no members in place. Because a
majority vote of the Board is required to decide a case, see 5 C.F.R. § 1200.3(a),
(e), the Board is unable to issue decisions on petitions for review filed with it at
this time. See 5 U.S.C. § 1203. Thus, while parties may continue to file petitions
for review during this period, no decisions will be issued until at least two
members are appointed by the President and confirmed by the Senate. The lack of
a quorum does not serve to extend the time limit for filing a petition or cross
petition. Any party who files such a petition must comply with the time limits
specified herein.
For alternative review options, please consult the section below titled
“Notice of Appeal Rights,” which sets forth other review options.

Appendix B

31
Criteria for Granting a Petition or Cross Petition for Review
Pursuant to 5 C.F.R. § 1201.115, the Board normally will consider only
issues raised in a timely filed petition or cross petition for review. Situations in
which the Board may grant a petition or cross petition for review include, but are
not limited to, a showing that:
(a) The initial decision contains erroneous findings of material fact. (1)
Any alleged factual error must be material, meaning of sufficient weight to
warrant an outcome different from that of the initial decision. (2) A petitioner
who alleges that the judge made erroneous findings of material fact must explain
why the challenged factual determination is incorrect and identify specific
evidence in the record that demonstrates the error. In reviewing a claim of an
erroneous finding of fact, the Board will give deference to an administrative
judge’s credibility determinations when they are based, explicitly or implicitly,
on the observation of the demeanor of witnesses testifying at a hearing.
(b) The initial decision is based on an erroneous interpretation of statute or
regulation or the erroneous application of the law to the facts of the case. The
petitioner must explain how the error affected the outcome of the case.
(c) The judge’s rulings during either the course of the appeal or the initial
decision were not consistent with required procedures or involved an abuse of
discretion, and the resulting error affected the outcome of the case.
(d) New and material evidence or legal argument is available that, despite
the petitioner’s due diligence, was not available when the record closed. To
constitute new evidence, the information contained in the documents, not just the
documents themselves, must have been unavailable despite due diligence when
the record closed.
As stated in 5 C.F.R. § 1201.114(h), a petition for review, a cross petition

for review, or a response to a petition for review, whether computer generated,
typed, or handwritten, is limited to 30 pages or 7500 words, whichever is less. A

Appendix B

32
reply to a response to a petition for review is limited to 15 pages or 3750 words,
whichever is less. Computer generated and typed pleadings must use no less than
12 point typeface and 1-inch margins and must be double spaced and only use one
side of a page. The length limitation is exclusive of any table of contents, table of
authorities, attachments, and certificate of service. A request for leave to file a
pleading that exceeds the limitations prescribed in this paragraph must be
received by the Clerk of the Board at least 3 days before the filing deadline. Such
requests must give the reasons for a waiver as well as the desired length of the
pleading and are granted only in exceptional circumstances. The page and word
limits set forth above are maximum limits. Parties are not expected or required to
submit pleadings of the maximum length. Typically, a well-written petition for
review is between 5 and 10 pages long.
If you file a petition or cross petition for review, the Board will obtain the
record in your case from the administrative judge and you should not submit
anything to the Board that is already part of the record. A petition for review
must be filed with the Clerk of the Board no later than the date this initial
decision becomes final, or if this initial decision is received by you or your
representative more than 5 days after the date of issuance, 30 days after the date
you or your representative actually received the initial decision, whichever was
first. If you claim that you and your representative both received this decision
more than 5 days after its issuance, you have the burden to prove to the Board the
earlier date of receipt. You must also show that any delay in receiving the initial
decision was not due to the deliberate evasion of receipt. You may meet your
burden by filing evidence and argument, sworn or under penalty of perjury (see 5
C.F.R. Part 1201, Appendix 4) to support your claim. The date of filing by mail
is determined by the postmark date. The date of filing by fax or by electronic
filing is the date of submission. The date of filing by personal delivery is the
date on which the Board receives the document. The date of filing by commercial
delivery is the date the document was delivered to the commercial delivery

Appendix B

33

service. Your petition may be rejected and returned to you if you fail to provide
a statement of how you served your petition on the other party. See 5 C.F.R.
§ 1201.4(j). If the petition is filed electronically, the online process itself will
serve the petition on other e-filers. See 5 C.F.R. § 1201.14(j)(l).
A cross petition for review must be filed within 25 days after the date of
service of the petition for review.
NOTICE TO AGENCY/INTERVENOR
The agency or intervenor may file a petition for review of this initial
decision in accordance with the Board's regulations.
NOTICE OF APPEAL RIGHTS
You may obtain review of this initial decision only after it becomes final,
as explained in the “Notice to Appellant” section above. 5 U.S.C. § 7703(a)(1).
By statute, the nature of your claims determines the time limit for seeking such
review and the appropriate forum with which to file.

5 U.S.C. § 7703(b).

Although we offer the following summary of available appeal rights, the Merit
Systems Protection Board does not provide legal advice on which option is most
appropriate for your situation and the rights described below do not represent a
statement of how courts will rule regarding which cases fall within their
jurisdiction. If you wish to seek review of this decision when it becomes final,
you should immediately review the law applicable to your claims and carefully
follow all filing time limits and requirements,

Failure to file within the

applicable time limit may result in the dismissal of your case by your
chosen forum.
Please read carefully each of the three main possible choices of review
below to decide which one applies to your particular case. If you have questions
about whether a particular forum is the appropriate one to review your case, you
should contact that forum for more information.

Appendix B

34
(1) Judicial review in general. As a general rule, an appellant seeking
judicial review of a final Board order must file a petition for review with the U.S.
Court of Appeals for the Federal Circuit, which must be received by the court
within 60 calendar days of the date this decision becomes final

5 U.S.C.

§ 7703(b)(1)(A).
If you submit a petition for review to the U.S. Court of Appeals for the
Federal

Circuit,

you

must

submit your petition to

the

court

at the

following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Additional information about the U.S. Court of Appeals for the Federal
Circuit is available at the court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners and Appellants,” which is
contained within the court’s Rules of Practice, and Forms 5, 6, 10, and 11.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit. The
Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
(21 Judicial

or

EEOC

review

of cases

involving

a

claim

of

discrimination. This option applies to you only if you have claimed that you
were affected by an action that is appealable to the Board and that such action
was based, in whole or in part, on unlawful discrimination. If so, you may obtain
judicial review of this decision—including a disposition of your discrimination
claims—by filing a civil action with an appropriate U.S. district court {not the
U.S. Court of Appeals for the Federal Circuit), within 30 calendar days after this

Appendix B

35
decision becomes final under the rules set out in the Notice to Appellant section,
above.

5 U.S.C. § 7703(b)(2); see Perry v. Merit Systems Protection Board,

582 U.S. ____ , 137 S. Ct. 1975 (2017). If the action involves a claim of
discrimination based on race, color, religion, sex, national origin, or a disabling
condition, you may be entitled to representation by a court-appointed lawyer and
to waiver of any requirement of prepayment of fees, costs, or other security. See
42 U.S.C. § 2000e-5(f) and 29 U.S.C. § 794a.
Contact information for U.S. district courts can be found at their respective
websites, which can be accessed through the link below:
http://www.uscourts.gov/Court Locator/CourtWebsites.aspx.
Alternatively, you may request review by the Equal Employment
Opportunity Commission (EEOC) of vour discrimination claims only, excluding
all other issues. 5 U.S.C. § 7702(b)(1). You must file any such request with the
EEOC’s Office of Federal Operations within 30 calendar days after this decision
becomes final as explained above. 5 U.S.C. § 7702(b)(1).
If you submit a request for review to the EEOC by regular U.S. mail, the
address of the EEOC is:
Office of Federal Operations
Equal Employment Opportunity Commission
P.O. Box 77960
Washington, D.C. 20013
If you submit a request for review to the EEOC via commercial delivery or
by a method requiring a signature, it must be addressed to:
Office of Federal Operations
Equal Employment Opportunity Commission
131 M Street, N.E.
Suite 5SW12G
Washington, D.C. 20507
(3) Judicial

review

pursuant

to

the

Whistleblower

Protection

Enhancement Act of 2012. This option applies to you only if you have raised
claims of reprisal for whistleblowing disclosures under 5 U.S.C. § 2302(b)(8) or

Appendix B

36
other protected activities listed in 5 U.S.C. § 2302(b)(9)(A)(i), (B), (C), or (D).
If so, and you wish to challenge the Board’s rulings on vour whistleblower claims
only, excluding all other issues, then you may file a petition for judicial review
with the U.S. Court of Appeals for the Federal Circuit or any court of appeals of
competent jurisdiction.

The court of appeals must receive your petition for

review within 60 days of the date this decision becomes final under the rules set
out in the Notice to Appellant section, above. 5 U.S.C. § 7703(b)(1)(B).
If you submit a petition for judicial review to the U.S. Court of Appeals for
the Federal Circuit, you must submit your petition to the court at the
following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Additional information about the U.S. Court of Appeals for the Federal
Circuit is available at the court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners and Appellants,” which is
contained within the court’s Rules of Practice, and Forms 5, 6, 10, and 11.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit. The
Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
Contact information for the courts of appeals can be found at their
respective websites, which can be accessed through the link below:
http://www.uscourts.gov/Court_Locator/CourtWebsites.aspx

Appendix B

i

INDEX

Page 1 of3

TONYA KNOWLES
v.
DEPARTMENT OF VETERANS AFFAIRS
MSPB Docket No. AT-1221-19-0047-W-1

INDIVIDUAL RIGHT OF ACTION (IRA)
TAB

VOLUME

DESCRIPTION OF DOCUMENT

DATE OF RECEIPT
OR ISSUANCE

1

1

Appellant - Initial Appeal

October 19,2018

2

1

Appellant - Supporting Documents

October 22, 2018

3

1

MSPB - Acknowledgment Order

October 24, 2018

4

1

MSPB - Jurisdiction Order

October 24, 2018

5

1

Agency - Agency Representative Addition

October 25, 2018

6

1

Appellant - Response to Show Jurisdiction and Proof
Requirements

November 02, 2018

7

1

Appellant - Supporting Documents

November 03,2018

8

1

MSPB - Failure to Serve Order

November 05, 2018

9

2-3

Agency - Agency Response

November 13, 2018

10

4

MSPB - Order To Show Cause

November 14, 2018

11

4

MSPB - Order Suspending Case Processing

November 14,2018

12

4

Appellant - Response to Order to Show Cause

December 20,2018

13

4

Appellant - Order to Show Cause

December 20, 2018

14

4

Appellant - Correction to Submission

December 20, 2018

15

4

Appellant - Corrected Response Order to Show Cause

December 20, 2018

16

5

Appellant - Supportive Documents

December 20, 2018

17

5

Appellant - Supportive Documents 2

December 20, 2018

18

5

Appellant - Supportive Document 3

December 20, 2018

Appendix B

AT-1221 -19-0047-W-1

TONYA K1' AWLES v. DEPARTMENT OF VETEF NS AFFAIRS

Page 2 of 3

19

6

Appellant - Supportive Document

December 20,2018

20

6

Appellant - Supportive Document 5

December 21,2018

21

6

Appellant - Supportive Document 6

December 21,2018

22

6

MSPB - Order Rescheduling

January 29, 2019

23

6

MSPB - Correction

January 31, 2019

24

6

MSPB - Second Correction

February 01, 2019

25

7

Agency - Agency's Reply To Appellant's Response on
Jurisdiction

February 13, 2019

26

7

MSPB - Order Finding Jurisdiction Over IRA Appeal

February 14, 2019

27

7

MSPB - Hearing Order

February 14, 2019

28

7

MSPB - Summary of Telephonic Status Conference

February 28, 2019

29

7

Appellant - Appellant Reponse Prehearing Submissions

March 20, 2019

30

7

Appellant - Supportive Document

March 20, 2019

31

7

Appellant - Petition for Jurisdiction

March 20, 2019

32

7

Agency - Agency's Prehearing Submission

March 21, 2019

33

8

Appellant - Supportive Document 2

March 22, 2019

34

8

Agency - Agency's Prehearing Submission Supplement

March 25, 2019

35

8

Appellant - Response to Agency Submission: March
22,2019

March 25, 2019

36

8

Appellant - Motion to Preclude Evidence

March 25, 2019

37

8

Appellant - Correction: Response to Agency File March
22,2019

March 25, 2019

38

8

Appellant - Motion for Continuance

March 25, 2019

39

8

MSPB - Discovery Request Notice

March 26, 2019

40

8

Appellant - Motion to Amend Complaint

March 26, 2019

41

8

MSPB - Summary and Order

March 27, 2019

42

8

Appellant - Prehearing Concerns

March 27, 2019

Appendix B

AT-1221 -19-0047-W-1

TONYA KT ^WLES v. DEPARTMENT OF VETEF NS AFFAIRS

Page 3 of3

43

8

Appellant - Requesting A Hold Without Prejudice

March 27, 2019

44

8

Appellant - Further Clarification Question: Proposed
Removal

March 27, 2019

45

8

Appellant - Correction: Further Clarification Proposed
Removal

March 27, 2019

46

8

Appellant - Please Delete: Request Hold Without
Prejudice

March 27, 2019

47

8

Appellant - Motion for Continuance

March 27, 2019

48

8

Appellant - Modified Witness List

March 28,2019

49

8

MSPB - Summary of Telephonic Prehearing Conference

March 28, 2019

50

8

Appellant - Response to Telephonic Prehearing
Conference

March 28, 2019

51

8

Appellant - Supportive Document: OPM Misconduct

March 29, 2019

52

8

Appellant - Supportive Document

April 02, 2019

53

8

Appellant - Supportive Document: New Hire Acceptance
Letter

April 02, 2019

54

8

Other - Court Reporter's Certification

April 03,2019

55

8

MSPB-Hearing 4.3.2019

April 03,2019

56

8

MSPB - Initial Decision

April 22, 2019

57

8

MSPB - Certificate of Service

April 22, 2019

Appendix B

zvfH

INDEX

Page 1 of 1

TONYA KNOWLES
v.
DEPARTMENT OF VETERANS AFFAIRS
MSPB Docket No. AT-1221-19-0047-S-1

STAY OF PERSONNEL ACTION
TAB

VOLUME

DESCRIPTION OF DOCUMENT

DATE OF RECEIPT
OR ISSUANCE

1

1

Appellant - Initial Appeal

October 19,2018

2

1

Appellant - Supporting Documents

October 22,2018

3

1

MSPB - Initial Decision

October 26,2018

4

1

MSPB - Certificate of Service

October 26,2018

5

1

MSPB - Erratum Order

June 14, 2019

Appendix B

9

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
ATLANTA REGIONAL OFFICE

DOCKET NUMBER
AT-1221-19-0047-W-l

TONYA KNOWLES,
Appellant,
v.

DATE: February 14,2019

DEPARTMENT OF VETERANS
AFFAIRS,
Agency.

ORDER FINDING JURISDICTION OVER IRA APPEAL
On October 24, 2018, I issued an Order on Jurisdiction and Proof
Requirements wherein I directed the appellant to file evidence establishing that
the Board has jurisdiction over her appeal. See Initial Appeal File (IAF), Tab 4.
The appellant filed a multi-part response on November 2 and 3, 2018 (IAF, Tabs
6, 7), and the agency filed a response on November 13, 2018 (IAF, Tab 9). On
November 14, 2018, I issued an Order to Show Cause requiring the appellant to
provide additional support for her jurisdictional claims.

IAF, Tab 10.

The

appellant filed another multi-part response on December 20 and 21, 2018. IAF,
Tabs 12-21.

The agency filed its response to the appellant’s supplemental

submissions on February 13, 2019.

For the following reasons, I find that the

Board has jurisdiction over the appeal.
The appellant has met her burden of showing she exhausted administrative
proceedings before the OSC.
In an IRA appeal, the Board may consider only those charges of
whistleblowing that the appellant asserted before OSC and may not consider any
subsequent recharacterization of those allegations (or any additional allegations)
put forth by the appellant in her appeal to the Board. See Ellison v. Merit Systems
Protection Board, 7 F.3d 1031, 1036 (Fed. Cir. 1993); Ward v. Merit Systems
Protection Board, 981 F.2d 521, 526 (Fed. Cir. 1992); D’Elia v. Department of
the Treasury, 60 M.S.P.R. 226, 231 (1993). On October 18, 2018, OSC notified

Appxl56

2

the appellant that it had made a final determination to close its inquiry into her
complaint. See IAF, Tab 1. The appellant filed this IRA appeal on October 19,
2018. Id. Because the appellant filed this appeal with the Board within 65 days
of the OSC notice, I find that she satisfied the timeliness aspect of the exhaustion
requirement, and that she has exhausted administrative proceedings before OSC.
The appellant has identified one or more personnel actions allegedly taken in
retaliation for alleged whistleblowing.
Pursuant to 5 U.S.C. § 2302(a)(2)(A), a “personnel action” means: (i) an
appointment; (ii) a promotion; (iii) an action under chapter 75 of title 5 or other
disciplinary or corrective action; (iv) a detail, transfer, or reassignment; (v) a
reinstatement; (vi) a restoration; (vii) a reemployment; (viii) a performance
evaluation under chapter 43 of title 5; (ix) a decision concerning pay, benefits, or
awards, or concerning education or training if the education or training may
reasonably be expected to lead to an appointment, promotion, performance
evaluation, or other action; (x) a decision to order psychiatric testing or
examination; and (xi) any other significant change in duties, responsibilities, or
working conditions. The appellant alleged, inter alia, that in 2016 the agency
proposed and effected a suspension without pay, and in 2018 proposed her
removal. IAF, Tab 15.1 Consequently, I find that the appellant has made a nonfrivolous allegation that she suffered one or more personnel actions under 5
U.S.C. § 2302(a)(2)(A).

The appellant raised at least one protected disclosure before OSC.

1 It is unclear from the record whether the agency has effected the appellant’s removal.

Appxl57

3
To show she engaged in whistleblowing activity, the appellant must
nonfrivolously allege2 that she disclosed information that she reasonably believed
evidenced a violation of any law, rule, or regulation, gross mismanagement,3 a
gross waste of funds,4 an abuse of authority,5 or a substantial and specific danger

2 By regulation, the Board has defined a nonfrivolous allegation as “an assertion that, if
proven, could establish the matter at issue.” 5 C.F.R. § 1201.4fsl. The regulation
further provides, “An allegation generally will be considered nonfrivolous when, under
oath or penalty of perjury, an individual makes an allegation that: (1) is more than
conclusory; (2) is plausible on its face; and (3) is material to the legal issues in the
appeal.” Id. Pro forma allegations are insufficient to meet the nonfrivolous standard.
Clark v. U.S. Postal Service. 2016 M.S.P.B. 26 f 6 (2016) (citing Lam v. Department of
Homeland Security. 101 M.S.P.R. 190. f 7 (2006)). Once an employee has made a
nonfrivolous allegation sufficient to establish jurisdiction, she is entitled to a hearing.
Brunton v. U.S. Postal Service. 114 M.S.P.R. 365. f 13 (2010).

3 The Board has defined "gross mismanagement" to mean management action or
inaction that creates a substantial risk of significant adverse impact on an agency's
ability to accomplish its mission. See Nafus v. Department of the Army, 57 M.S.P.R.
386, 393 (1993). Gross mismanagement is more than de minimis wrong doing or
negligence. Thus, gross mismanagement does not include management decisions which
are merely debatable, nor does it mean action or inaction which constitutes simple
negligence or wrongdoing. There must be an element of blatancy. See id.

4 The Board has defined "gross waste of funds" to constitute a more than debatable
expenditure that is significantly out of proportion to the benefit reasonably expected to
accrue to the government. See Nafus v. Department of the Army, 57 M.S.P.R. 386, 393
(1993).

5 An “abuse of authority” occurs when there is an arbitrary or capricious exercise of
power by a federal official or employee that adversely affects the rights of any person
or that results in personal gain or advantage to himself or to a preferred other person.
See McCorcle v. Department of Agriculture, 98 M.S.P.R. 363,
21-25 (2005), citing
Embree Department of Treasury, 70 M.S.P.R. 79, 85 (1996).

Appxl58

4
to public health or safety. See Garrison v. Department of Defense, 101 M.S.P.R.
229, f 8 (2006); Smith v. Department of the Army, 80 M.S.P.R. 311, f 4 (1998).
In cases involving multiple alleged protected disclosures and/or more than
one alleged personnel action, if the appellant makes a nonfrivolous allegation that
at least one alleged personnel action was taken for at least one alleged protected
disclosure, she has established the Board's jurisdiction over her IRA appeal.
Swanson v. General Services Administration, 110 M.S.P.R. 278, f 9 (2008) (citing
Horton v. Department of Veterans Affairs, 106 M.S.P.R. 234,

14 (2007)).

To establish a reasonable belief, an appellant need not prove that the matter
disclosed actually established one or more of the listed categories of wrongdoing,
but she must show that the matter disclosed was one which a reasonable person in
her position would believe evidenced one of the specified categories of
wrongdoing. See Garrison,

101 M.S.P.R. 229, f 8; Applewhite v. Equal

Employment Opportunity Commission, 94 M.S.P.R. 300,1fl2 (2003).
In response to my Order to Show Cause, the appellant asserted that, on or
about July 26, 2016, she made a disclosure to agency management to the effect
that patient identifiable information was not safeguarded in violation of, inter
alia, the Privacy Act and HIPAA.

IAF, Ta 15, p. 5.

Consequently, I find the

appellant has nonfrivolously alleged that a disinterested observer with knowledge
of the essential facts known to and readily ascertainable by her could reasonably
conclude that the agency’s actions evidence wrongdoing as defined by the WPA.6

6 Regarding a disclosure involving a violation of law, rule, or regulation, the inquiry as
to whether a disclosure is protected ends upon a determination that the appellant
disclosed what he or she reasonably believed to be a violation of law, rule, or
regulation; there is no further inquiry into the type of “fraud, waste, or abuse” involved.
Ganski v. Department of the Interior. 86 M.S.P.R. 32. f 11 (2000). In addition, there is
no exception to that rule for a disclosure of a trivial or de minimis violation of a law,
rule, or regulation. Grubb v. Department of the Interior. 96 M.S.P.R. 377. 26 (2004);
see also Mogvorossv v. Department of the Air Force. 96 M.S.P.R. 652. f 14 (2004).

Appxl59

5
In short, she has nonfrivolously alleged that she disclosed information that she
reasonably believed evidenced, inter alia, a violation of law, rule, or regulation.
I further find these disclosures were raised before OSC. IAF, Tab 1. Based on
the appellant’s submissions, I find that she has raised a nonfrivolous allegation
that she had a reasonable belief that her disclosures were protected.7
The appellant has raised nonfrivolous allegations that her disclosures were a
contributing factor.
An employee may demonstrate that a disclosure was a contributing factor
in a personnel action through circumstantial evidence, such as evidence that the
official taking the personnel action knew of the disclosure, or by demonstrating
that an individual with actual knowledge of the disclosure influenced the official
accused of taking retaliatory action.

See 5 U.S.C. § 1221(e)(1); Scott v.

Department of Justice, 69 M.S.P.R. 211, 238 (1995), affd, 99 F.3d 1160 (Fed. Cir.
1996)(Table); Greenup v. Department of Agriculture, 106 M.S.P.R. 202 (2007).
The appellant need only make a nonfrivolous allegation that the agency official
who took the action had constructive knowledge of the disclosure. Constructive
knowledge may be established by demonstrating that an individual with actual
knowledge of the disclosure influenced the official accused of taking the
retaliatory action. See Swinford v. Department of Transportation, 107 M.S.P.R.
433, f 9 (2007). The appellant can also show that a disclosure was a contributing
factor by showing that the personnel action occurred within a period of time such
that a reasonable person could conclude that the disclosure was a contributing
factor in the personnel action, i.e., the so-called knowledge/timing test. See Scott

7 I note that the Whistleblower Protection Enhancement Act (WPEA), enacted on December
27, 2012, provides retroactive protection for disclosures made in the course of an employee's
normal duties, as well as for disclosures made to the alleged wrongdoer See Day v.
Department of Homeland Security, 119 M.S.P.R. 589, f f 16-19(2013).

Appxl60

6
v. Department of Justice, 69 M.S.P.R. 211, 238 (1995), aff’d, 99 F.3d 1160 (Fed.
Cir. 1996 (Table).
In her response to my Order to Show Cause, the appellant alleged that the
above-discussed disclosure to her supervisors in early 2016 was a contributing
factor in the agency’s proposed suspension later that year. See IAF, Tab 15, p. 5.
I find that she has made a nonfrivolous allegation of at least constructive
knowledge and that her disclosure was a contributing factor to the personnel
action(s) at issue. I further find that the personnel actions to which she was
subjected occurred within a period of time such that a reasonable person could
conclude that the disclosures were a contributing factor in the personnel action.
Based on the foregoing, I find that the appellant has made a nonfrivolous
allegation such that a reasonable person could conclude that the disclosures were
contributing factors in at least one personnel action at issue in this appeal.
The appellant is entitled to a hearing.
It is well-established that the right to a hearing on the merits is based upon
nonfrivolous allegations.

See Applewhite v. Equal Employment Opportunity

Commission, 94 M.S.P.R. 300, 305

9 (2003). The truth of such allegations is

tested in a hearing in which the appellant must prove the allegations by
preponderant evidence.

See Dick v. Veterans Administration, 290 F.3d 1356,

1362, 1364 (Fed. Cir. 2002).
Accordingly, I find the appellant has established the Board’s jurisdiction
over her IRA appeal.8 I further find that she is entitled to her requested hearing
8 An employee must prove by preponderant evidence each of the factors as to which she
made a non-frivolous allegation to meet her burden of proving jurisdiction, including
that the disclosure was a contributing factor in the agency’s personnel decision. See
Horton v. Department of the Navy, 66 F.3d 279, 284 (Fed. Cir. 1995), cert, denied, 516
U.S. 1176 (1996). If the appellant meets this burden, the Board will not sustain the
action unless the agency presents clear and convincing evidence that it would have
taken the action in the absence of the protected disclosures. See 5 U.S.C. § 2302(b)(8).
Clear and convincing evidence is defined by 5 C.F.R. § 1209.4(d) as that measure or
degree of proof that produces in the mind of the trier of fact a firm belief as to the
allegations sought to be established. In determining whether an agency has shown by

Appxl61

7
and a decision on the merits. Accordingly, this matter will be set for hearing by
separate order.

Further, I will specify parameters regarding the personnel

action(s) to be adjudicated during the hearing in subsequent orders.

FOR THE BOARD:

/S/
Jeffrey S. Morris
Administrative Judge

clear and convincing evidence that it would have taken the same personnel action in the
absence of whistleblowing, the Board will consider the following factors: (1) the
strength of the agency's evidence in support of its action; (2) the existence and strength
of any motive to retaliate on the part of the agency officials who were involved in the
decision; and (3) any evidence that the agency takes similar actions against employees
who are not whistleblowers but who are otherwise similarly situated. See Carr v. Social
Security Administration, 185 F.3d 1318, 1323 (Fed. Cir. 1999), affd, 185 F.3d 1318
(Fed. Cir. July 30, 1999); Azbill v. Department of Homeland Security, 105 M.S.P.R. 363
(2007).

Appxl62

CERTIFICATE OF SERVICE
I certify that the attached Document(s) was (were) sent as indicated this
day to each of the following:
Appellant
Electronic Mail

Tonya Knowles
1201 Seminole Blvd.
Apartment 474
Largo, FL 33770
Agency Representative

Electronic Mail

Regional Counsel
Department of Veterans Affairs
Office of Regional Counsel (02FT)
Franklin Templeton Building - 140 Fountain Parkway, Suite 520
St. Petersburg, FL 33716

Electronic Mail

Tanya Burton, Esq.
Department of Veterans Affairs
C.W. Bill Young VA Medical Center
P.O. Box 5005 (516/02)
Bay Pines, FL 33744

February 14, 2019
(Date)

/S/
Veronica Woodiest
Paralegal Specialist

Appxl63

Additional material
from this filing is
available in the
Clerk's Office.

